No.

IN THE
SUPREME COURT OF THE UNITED STATES

MOLLY C. DWYER, Clerk UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT No. Case 20-16139

APPENDIX A

APPENDIX A
APPENDIX A - United States Court of Appeals for the Ninth Circuit - NO. 20-16136
PAGE
App. A-l

Docket for case 20-16136.......

4

App. A-2

Referral Notice........................

4

App. A-3

Objection to Referral...............

4

App. A-4

Order - Molly C. Dwyer, Clerk

4

App. A-5

Motion for Relief of Stay........

5

App. A-6

Declaration..............................

5

App. A-7

Order......................................

5

App. A-8

Mandate..................................

6

2

\
V

APPENDIX A - EX 1
Docket for Case 20-16136

3

20-16136 Docket

Page 3 of 5

06/10/2020

1
DOCKETED CAUSE AND ENTERED APPEARANCE OF PRO SE APPELLANT AND NO APPEARANCE
60 pg, 946.49 kb FOR APPELLEES. SEND MQ: No. The schedule is set as follows: Appellant Astarte Davis ODenina brief
due 08/12/2020. [11716875] (RT) [Entered: 06/10/2020 07:49 AM]

06/12/2020

□
2 pg, 126.64 KB

Filed referral notice (Deputy ClerlcCKP): Referring to the district court for determination whether in forma
pauperis status should continue for this appeal. [11719907] (CKP) [Entered: 06/12/2020 10:16 AM]

□ 3.

Filed Appellant Astarte Davis objection to referral. [11729249] (JFF) [Entered: 06/22/2020 01:01 PM]

Q 4

Copy of letter received from Appellant Astarte Davis. Case history [11730391] (JFF) [Entered- 06/23/2020
10:21 AM]

06/19/2020

2 pg. 16.28 KB

06/22/2020

2 pg, 22^31 KB

06/22/2020 □ j
kb

06/24/20;

□ 6_ J
Filed clerk order (Deputy Clerk: CO): A review of the district court’s docket reflects that the district court has
14 pg, 284^7 kb certified that this appeal is not taken in good faith and is frivolous and has revoked appellant’s in forma
/
pauperis status. See 28 U.S.C. § 1915(a). This court may dismiss a case at any time, if the court
determines the case is frivolous. See 28 U.S.C. § 1915(e)(2). Within 35 days after the date of this order,
appellant must: (1) file a motion to dismiss this appeal, see Fed. R. App. P. 42(b), or (2) file a statement
explaining why the appeal is not frivolous and should go forward. If appellant files a statement that the
appeal should go forward, appellant also must: (1) file in this court a motion to proceed in forma pauperis,
OR (2) pay to the district court $505.00 for the filing and docketing fees for this appeal AND file in this court
proof that the $505.00 was paid. If appellant does not respond to this order, the Clerk will dismiss this
appeal for failure to prosecute, without further notice. See 9th Cir. R. 42-1. If appellant files a motion to
dismiss the appeal, the Clerk will dismiss this appeal, pursuant to Federal Rule of Appellate Procedure 42
(b). If appellant submits any response to this order other than a motion to dismiss the appeal, the court may
dismiss this appeal as frivolous, without further notice. The briefing schedule for this appeal is stayed. The
Clerk shall serve on appellant: (1) a form motion to voluntarily dismiss the appeal, (2) a form statement that
the appeal should go forward, and (3) a Form 4 financial affidavit. Appellant may use the enclosed forms for
any motion to dismiss the appeal, statement that the appeal should go forward, and/or motion to proceed in
forma pauperis. [11732169] (CKP) [Entered: 06/24/2020 12:09 PM]

07/01/2020 □ j_
7 pg. 146.62 KB
07/01/2020
07/28/2020

□ j

08/26/2020 □ ___
10
1 pg, 29.96 kb

09/09/2020

□ 12
H 13
5 pg. 20.68 MB

10/07/2020 □ 14
1 pg. 55.86 kb

10/14/2020 □ 15
10/23/2020
12/11/2020

Streamlined request by Appellant Astarte Davis to extend time to file the brief is not approved
because it is unnecessary. The briefing schedule for this appeal is stayed see court order dated
06/24/2020. [11803680] (BG) [Entered: 08/26/2020 01:33 PM]

Filed Appellant Astarte Davis motion Declaration on the manipulation of the docket and support of stay
appeal. Deficiencies: None. [11817857] (JFF) [Entered: 09/09/2020 02:38 PM]
Filed letter dated 09/11/2020 re: asking for help. Paper filing deficiency: None. [11829393] (JFF) [Entered09/18/2020 01:55 PM]
Supreme Court Case Info
Case number: 20-5919
Filed on: 09/28/2020
Cert Petition Action 1: Pending
[11851098] (RL) [Entered: 10/07/2020 02:18 PM]

4 pg, 48.35 KB

Filed Appellant Astarte Davis letter re: notice of petition for a writ of certiorari. Paper filing deficiency- None
[11859485] (JFF) [Entered: 10/15/2020 09:12 AM]

□ IQ
1 pg.TiTs KB

Filed Appellant Astarte Davis letter dated 10/26/2020 re: courtesy copy of ntc of deadline responses in the
USSC. NAN. Paper filing deficiency: None. [11871147] (CW) [Entered: 10/26/2020 09:24 AM]

□ J7_

Supreme Court Case Info
Case number: 20-5919
Filed on: 09/28/2020
Cert Petition Action 1: Denied, 12/07/2020
[11923681] (RR) [Entered: 12/11/2020 02:12 AM]

1 pg, 62.44 KB

12/11/2020

Filed Appellant Astarte Davis letter dated re: Notice and request. Paper filing deficiency None [11769576]
(JFF) [Entered: 07/28/2020 02:40 PM]

Q n
Filed Appellant Astarte Davis statement that the appeal should go forward [11809936] (JFF) [Entered:
18 pg, 207.29 KB 09/01/2020 03:56 PM]
8 pg, 7739 KB

09/18/2020

Filed Appellant Astarte Davis motion to proceed In Forma Pauperis. Deficiencies' None Served on
06/29/2020. [11740882] (JFF) [Entered: 07/02/2020 11:30 AM]

□ 8
Filed Appellant Astarte Davis letter dated re: statement. Paper filing deficiency: None [ 11740889] (JFF)
i4pgTT73.54KB [Entered: 07/02/2020 11:32 AM]
2pg.T3.55 KB

09/01/2020

Received copy of District Court order filed on 06/15/2020. IFP status is hereby REVOKED[117303951 /JFF)
[Entered: 06/23/2020 10:23 AM]

□ 18
Filed Appellant Astarte Davis motion to continue appeal, notice of USSC decision. Deficiencies: None.
22 pg7"42i.73 kb Served on 12/10/2020. [11925200] (CW) [Entered: 12/11/2020 05:42 PM]

https:// ecf.ca9. uscourts. go v/n/beam/servlet/T ransportRoom

3/20/2021

20-16136 Docket
01/05/2021
01/21/2021

□ _19
_
Filed Appellant Astarte Davis motion request Judicial Council for review. Deficiencies' None Served on
19 pg. 315.03KB [11954095] (JFF) [Entered: 01/06/2021 10:38AM]
Q 20
1 pg, 14.42 KB

02/23/2021

03/17/2021

Page 4 of 5

Filed Appellant Astarte Davis letter dated re: proof of service. Paper filinq deficiency None f119748041
(JFF) [Entered: 01/21/2021 11:37 AM]
1
1

□ ___
21
2 pg. 146.42 kb

Filed order (FERDINAND F. FERNANDEZ, JAY S. BYBEE and BRIDGET S. BADE) The district court
certified that this appeal is frivolous and is not taken in good faith and revoked appellant's in forma pauperis
status. See 28 U.S.C. § 1915(a). On June 24, 2020, the court ordered appellant to explain in writing why
this appeal should not be dismissed as frivolous. See 28 U.S.C. § 1915(e)(2) (court shall dismiss case at
any time, if court determines it is frivolous or malicious). Upon a review of the record and the response to
the court’s June 24, 2020 order, we conclude this appeal is frivolous. We therefore deny appellant’s motion
to proceed in forma pauperis (Docket Entry No. [7]) and dismiss this appeal as frivolous, pursuant to 28
U.S.C. § 1915(e)(2). All other pending motions are denied as moot. DISMISSED [120134521 (WL)
[Entered: 02/23/2021 11:07 AM]

Q 22

MANDATE ISSUED. (FFF, JSB and BSB) [12043861] (JFF) [Entered: 03/17/2021 08:50 AM]

1 pg, 91.9 KB

https://ecf.ca9.uscourts.gov/n/beam/servlet/TransportRoom

3/20/2021

APPENDIX A - EX 2
Referral Notice

4

Case: 20-16136, 06/12/2020, ID: 11719907, DktEntry: 2, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN 12 2020
MOLLY C. DWYER. CLERK
U.S. COURT OF APPEALS

ASTARTE DAVIS,
Plaintiff - Appellant,
v.
JOSEPH WILSON, individually and in
his official capacity as a Judge in the
Marin County Superior Court of the
State of California; et al.,

No. 20-16136
D.C. No. 3:20-cv-02657-RS
U.S. District Court for Northern
California, San Francisco
REFERRAL NOTICE

Defendants - Appellees.

This matter is referred to the district court for the limited purpose of determining
whether in forma pauperis status should continue for this appeal or whether the
appeal is frivolous or taken in bad faith. See 28 U.S.C. § 1915(a)(3); see also
Hooker v. American Airlines, 302 F.3d 1091, 1092 (9th Cir. 2002) (revocation of
forma pauperis status is appropriate where district court finds the appeal to be
frivolous).
If the district court elects to revoke in forma pauperis status, the district court is
requested to notify this court and the parties of such determination within 21 days
of the date of this referral. If the district court does not revoke in forma pauperis
status, such status will continue automatically for this appeal pursuant to Fed. R.
App. P. 24(a).
This referral shall not affect the briefing schedule previously established by this
court.

Case: 20-16136, 06/12/2020, ID: 11719907, DkfEntry: 2, Page 2 of 2

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Cyntharee K. Powells
Deputy Clerk
Ninth Circuit Rule 27-7

APPENDIX A-EX 3
Objection to Referral

5

Case: 20-16136, 06/19/2020, ID: 11729249, DktEntry: 3, Page 1 of 2
A

ASTARTE DAVIS, in Pro Se
PO Box 306
Gualala, CA 95445
707-785-2972

JUhl 19

2020

OATE

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ASTARTE DAVIS,

No. 20-16136

Plaintiff - Appellant,

D.C. NO. 3:20-CV-cv-02657-RS
U.S. District Court
for Northern California
San Francisco

v.

OBJECTION TO REFERRAL
NOTICE THIS CASE IS NOT
FRIVOLOUS and NEVER WAS
NOR WAS IT TAKEN IN BAD
FAITH

JOSEPH WILSON; et al
Defendants - Appellees.

Astarte Davis's appeal is not frivolous, District Court in its Order did not say
the case was frivolous, when the case was closed. Believe NO court, no
matter how bad the wrong is, they will deny Astarte JUSTICE. How would
any one of you feel if you just had "your" 30-Million dollars of real property
taken away from you by a judge that would not hear a wrong of another
judge. Denial of protected constitutional right are not covered under any
statute of limitation. This case has undisputed material facts relevant to the
case showing denial of Astarte's due process. This case has NEVER been
heard on it merits. Judges do not have absolute judicial immunity for their
non-judicial acts under the supreme law of the land; which is a direct denial
of her U.S. Constitution rights of due process under the Fifth Amendment,
and California Constitution under the Fourteen Amendment. Why would the
Court of Appeals for the Ninth Circuit write a referral notice to the District
Court to revoke Astarte Forma Pauperis status, it was for one reason; so the
Court of Appeal had an out to not hear Astarte case?
How can any one say that is not a total INJUSTICE of these judges and
these courts?
1

wtJal

Case: 20-16136, 06/19/2020, ID: 11729249, DktEntry: 3, Page 2 of 2
f*

PROOF OF SERVICE

Astarte Davis mailed U.S.P.S. priority mail to:

The HONORABLE Richard Seeborg
United States District Court
450 Golden Gate Ave.
San Francisco, CA 9 4102
Molly C. Dwyer
Clerk of the Court
United States Court of Appeals
PO Box 193939
San Francisco, CA 94119

2

APPENDIX A - EX 4
Order - Molly C. Dwyer, Clerk

6

(i or 14)

Case: 20-16136, 06/24/2020, ID: 11732169, DktEntrv: 6-1, Page 1 of 2
4K ^

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

JUN 24 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ASTARTE DAVIS.
Plaintiff-Appellant.
v.

JOSEPH WILSON, individually and in his
official capacity as a Judge in the Marin
County Superior Court of the State of
California; et al.,

No.

20-16136

D.C. No. 3:20-cv-02657-RS
Northern District of California,
San Francisco
ORDER

Defendants-Appellees.
A review of the district court’s docket reflects that the district court has
certified that this appeal is not taken in good faith and is frivolous and has revoked
appellant’s in forma pauperis status. See 28 U.S.C. § 1915(a). This court may
dismiss a case at any time, if the court determines the case is frivolous. See 28
U.S.C. § 1915(e)(2).
Within 35 days after the date of this order, appellant must:
(1) file a motion to dismiss this appeal, see Fed. R. App. P. 42(b), or
(2) file a statement explaining why the appeal is not frivolous and should go
forward.
If appellant files a statement that the appeal should go forward, appellant
also must:

CO/Pro Se

(z or 14)
Case: 20-16136, 06/24/2020, ID: 11732169, DktEniry: 6-1, Page 2 of 2

(1) file in this court a motion to proceed in forma pauperis, OR
(2) pay to the district court $505.00 for the filing and docketing fees for this
appeal AND file in this court proof that the $505.00 was paid.
If appellant does not respond to this order, the Clerk wall dismiss this appeal
for failure to prosecute, without further notice. See 9th Cir. R. 42-1. If appellant
files a motion to dismiss the appeal, the Clerk will dismiss this appeal, pursuant to
Federal Rule of Appellate Procedure 42(b). If appellant submits any response to
this order other than a motion to dismiss the appeal, the court may dismiss this
appeal as frivolous, without further notice.
The briefing schedule for this appeal is stayed.
The Clerk shall serve on appellant: (1) a form motion to voluntarily dismiss
the appeal, (2) a form statement that the appeal should go forward, and (3) a Form
4 financial affidavit. Appellant may use the enclosed forms for any motion to
dismiss the appeal, statement that the appeal should go forward, and/or motion to
proceed in forma pauperis.

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT

By: Corina Orozco
Deputy Clerk
Ninth Circuit Rule 27-7
CO/Pro Se

2

APPENDIX A - EX 5
Motion for Relief of Stay

7

-^77
Case: 20-16136, 09/01/2020, ID: 11809936, Dkthntry: 11, Page 1 of 18
RECEIVED
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

SEP 0 1 2020

No: C.A. No. 20-16136
FILED____
DOCKETED,

DATE

INITIAL

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ASTARTE DAVIS,
Plaintiff - Appellant,
v.

JOSEPH WILSON; STEPHEN FRECCERO; MARK SIMONS
Defendants - Appellees.
On Appeal from the United States District Court
for the Northern District of California
No. 3:20-cv-02657-RS
Honorable Richard Seeborg

MOTION FOR RELIEF OF STAY ON APPEAL TO GO FORWARD

ASTARTE DAVIS, in Pro Se
PO Box 306
Gualala, CA 95445
Telephone No. 707-785-2972
e-mail: astartedavis@hotmail.com

I

Case: 20-16136, 09/01/2020, ID: 11809936, DktEntry: 11, Page 2 of 18

I. INTRODUCTION
Astarte is on appeal from the decision of the District Court Case No. 3.20-cv02657-RS pursuant to 42 U.S.C. 1983. A denial of protected fundamental constitutional
rights of due process to be heard and offer evidence in support of her position at trial.
That which took away multiple pieces of real property; rental income thereof; her home
and lifestyle.
All of w'hich the federal court/judge chose to ignore the uncontradicted relevant
evidence of the case: and the denial of constitutional rights before him. 1 hereby the
federal court/j udge did further deny Astarte her constitutional rights, and continued the
void judgments and harm to her, thereby his case is now void.
II. JURISDICTION
On 5/15/2020 Magistrate Judge filed the Report and Recommendation to Dismiss
Complaint. Mostly for the reason that judges have absolute immunity.
Astarte filed her timely Objection's to magistrate judge's recommendation to
dismiss her 42 U.S.A. 1983 complaint on 5/26/2020; for reasons which was/are contrary
to law.
On 5/29/2020 in case No. 20-cv-02657 the court/judge filed its Order Adopting
Report and Recommendation of the magistrate judge; thereby terminating the case with
prejudice. A court/judge's decision which was/is contrary to law; further failing to do a
required de novo review and his duty to read Astarte's pro se complaint under law. If the
court/judge had reviewed de novo her action under 42 U.S.A. 1983 it would have found
denial of protected fundamental constitutional rights of due process to be heard at
trial/hearing which are non-judicial acts by the defendants.
On 6/10/2020 an Appeal, a right under law was filed in the Court of Appeals case
No. 20-16136. For the reasons stated herein it would be impracticable to move first in the
district court.
III. STATEMENT OF ISSUES FOR RELIEF
On 6/12/2020 [Docket 3 j the Clerk of the U.S. Court of Appeals filed a Referral
.

Notice to the district court/judge asking whether the in forma pauperis status should
continue for this appeal; and if the district court had determined the case was frivolous.

2

Case: 20-16136, 09/01/2020, ID: 11809936, DktEntry: 11, Page 3 of 13

The Clerk's Referral was days after the termination of the case; and after Astarte's Appeal
had been filed 6/10/2020 [Docket 1 ]; and her request for the district court to forward
Record on Appeal. The district court/judge did file his Order on 5/29/2020 and
terminated the case with prejudice; nothing in his Order about the case being frivolous.
On 6/19/2020 Astarte timely filed her Objection to Clerk of the Appellate Court s
Referral.
On 6/22/2020 [Docket 5] this Court received an Order from the district
court/judge based on the Clerk's Referral revoking Astarte IFP. Astarte believes that is
inappropriate as it was done after the case. 20-cv-02657 was terminated/closed. Nothing
was

said at the hearing or in his order; or after the appeal was filed about being frivolous.
The district court/judge claims the defendants acts were judicial. Under law

judges do not have absolute when they deny constitutional rights; the Magistrate and the
Judge claim a denial of due process under the Fourteen Amendment was/is a judicial act.
Astarte claims is for non-judicial acts of denial of protected constitutional rights under 42
U.S.A. 1983. Astarte can prove her claims by undisputed material evidence of trial
documents relevant to the case, which is not conclusions, which gives Astarte grounds for
relief.
On 6/24/2020 [Docket 6] the Clerk U.S. Court of Appeals did file a motion to
dismiss Astarte's 42 U.S.A. 1983 action in appeal as frivolous, when it is not. Astarte did
file a timely statement on 7/1/2020 [Docket 7 & 8] why her appeal should go forward;
and her motion to proceed in Forma Pauperis.
The district court/judge did not send the record of the case nor did they serve the
defendants in the case.
Astarte will continual to suffer substantial harm by the stay of appeal to continue.
Furthermore, defendants continue to violate Astarte's rights under void cases. The
continuing violations would result from a stay or dismissal establish irreparable harm per
the constitutional nature of Astarte's claims. “An alleged constitutional infringement will
often alone constitute irreparable harm.” Goldie's Bookstore, Inc. v. Superior Court of
Cal., 739 F.2d 466. 472 (9th Cir. 1984). “The balance of the equities favors preventing
the violation of a party’s constitutional rights.” Ariz. Dream Act Coal. v. Brewer, 757
F.3d 1053, 1069 (9th Cir. 2014). Where the court/judge decisions is “arbitrary.

Case: 20-16136, 09/01/2020, ID: 11809936, DktEntry: 11, Page 4 of 13

not in accordance with the law,” or “in excess of statutory jurisdiction.” 5
capricious,
U.S.C. § 706(2). Astarte will likely succeed on the merits of her case.
The district court/judge did commit clear error in exercising his discretionary
T9

in case No. 20-cv-02657 an action pursuant to 42 U.S.A. 1983; as did the Clerk
decisions in
U.S. Court of Appeals in the dismissal.

IV STATEMENT OF THE FACTS OF CASE ON APPEAL OF UNCONTESTED
MATERIAL EVIDANCE
A.

Ignored undisputed material evidence relevant to the case by the Superior,

Federal and Appeal Courts/Judges/Justices and others. A fraudulent Grant Deed
concerning the real properties [and rental income thereof] at issue in the case was entered
into

evidence by defendants on the Second Day of Trial. The first time the grant deed

appeared in case and is extrinsic/collateral fraud with deceit which is criminal
conversion grant thief. The Trial Minutes shows the clear, concise statements by the
Courts and Judges, and others which denied Appellant's due process rights to be heard m
all property matters at trial. The xmdispxxltd fraudulent Grant Deed before the Marin
Superior Court and known by the Superior Court/Judge to be fraudulent: which took
Astarte Davis's properties and lifestyle; created and filed against a Restraining Order in
full force and effect; which was criminal conversion grant thief CPC§ 487; and further
denial/violation of protected constitutional Fourteenth Amendment of due process rights
at trial that further denied Astarte her California Primary Rights of her properties.
Ignored undisputed material evidence relevant to the case by the Superior,
Federal and Appeal Courts/Judges/Justices and others. The taking and keeping of the
rental income from the real property taken by fraud is an "injury in fact” which is "an
invasion of a legally protected interest which is (a) concrete and particularized and (b)
actual or imminent, not conjectural or hypothetical.” Lujan v. Defs. of Wildlife, 504 U.S.
555. 560 (1992). Constitutional Law [Loss of funds] ARTICLE 111. "A dollar of
economic harm is still an injury-in-fact for standing purposes.”); Carter v. Health Port
Techs.. LLC. 822 F.3d 47, 55 (2d Cir. 2016) (“Any monetary loss suffered by the plaintiff
satisfies the injury in fact element; 'even a small financial loss’ suffices.” (quoting Nat.
Res. Def. Council, Inc.

U.S. Food & Drug Admin., 710 F.3d 71, 85 (2d Cir. 201j>). cf

4

Case: 20-16136, 09/01/2020, ID: 11809936, DkiEntry: 11, Page 5 of 13

In re U.S. Office offers. Mgmt. Data Sec. Breach Litig., 928 F.3d 42, 66 (D.C. Cir.
2019) (per curiam) (addressing damages rather than standing) "The delay in those
Plaintiffs' receipt of their refunds, and the forgone time value of that money, is an actual,
tangible pecuniary injury,'’ Which Astarte Davis has shown.
Ignored undisputed material evidence relevant to the case by the Superior,
Federal and Appeal Courts/Judges/Justices and others. Annulment/divorce proceeding:
•

outline of the complain was created and manipulated by defendant with others in a quasi­
criminal conspiracy and filed by Astarte Davis under extreme duress. Four months later
the court took the divorce case off calendar; before any decision on issues, and without
notice or hearing, which is shown by the court's own documentation. Which is contrary to
law. Superior Court/Judge then granted a partial Order for dissolution of marriage
without notice and without a hearing, in favor of the defendant. This is denial/violation of
protected constitutional Fourteenth Amendment of due process rights to be heard and
offer evidence concerning the "other man" that Loyal claim she was married to.
The "other man;" Loyal was referring to is/was Louis Allabaugh of Tiburon, CA.
Who was the "other man," Astarte had been living with during 1956; they parted
company, and she move to Mill Valley. Louis Allabaugh was married to Emma Lauretta
Krumenacker in New Jersey on August 6, 1944. Louis Allabaugh died on February 21,
1974 still married to Emma Lauretta. Louis Allabaugh was not free, never was, nor
would he ever be, to have married Astarte. That is why Astarte moved to Mill Valley;
where she met and married Loyal Davis.
Ignored undisputed material evidence relevant to the case by the Superior,
Federal and Appeal Courts/Judges/Justices and others. At the Trial of the properties
matter the statement by the Superior Court/Judge was "concise" in its meaning in the
TRIAL MINUTES. The Third Day of Trial [property matters] the Superior Court/Judge
stated; "This matter coming on regular continuance, parties present, defendants moves to
exclude any further testimony on real property, court shall grant to exclude further
evidence, which includes property'* that involves Astarte Davis, as of this date " The
court's record show no moving documents filed and none was offered to Astarte. This is
denial/violation of protected constitutional Fourteenth Amendment of due process rights
to be heard and offer evidence in support of Astarte's case.

5

Case:

20-16136, 09/01/2020, ID: 11809936, DktEntry: 11, Page 6 of 13

Ignored undisputed material evidence relevant to the case by the Superior,
Federal and Appeal Courts/Judges/Justices and others; TRIAL MINUTES the Marin
Superior Court/Judge's statement was

"concise" in its meaning on the Sixth Day of Trial

denied her protected rights pursuant to the
[property matters] after Astarte Davis was
Constitution, Fifth Amendment and California Fourteenth Amendment TO BE
U.S.
HEARD OR PRESENT EVINDENCE at trial, concerning all real, and personal properties.
Therebv the Superior Court/Judge intentionally took Astarte Davis's ability to challenge
to their authenticity at trial, or otherwise. Astarte Davis's
any deeds/any documents as
constitutionally protected due process rights to be heard at trial was intentionally taken
y by fraud, by the Superior Court/Judge acting under color of law, and m his
aw'a
capacity as a judge, and as a private individual in a quasi-criminal conspiracy with the
defendants

under color of law. A mdse is not immune for tortious acts committed i}7_a

yrm-indinial capacity; as he did when he stated: The court finds
purely administrative,
Astarte Davis has no property claim against defendant Orders Judgmentfor defendant
This is

denial/violation of protected constitutional Fourteenth Amendment of due process

rights to be heard and offer evidence.
The above is only samples of wrongdoings that did harm Astarte Davis as shown
in her 42 U.S.A. 1983 before this Court.

B.

LEGITIMATE CLAIM OF ENTITLEMENT TO PR
AWAY BY DENIAL OF DUE PROCESS BY STATE COL RTS/JUDGES
JUSTICE - THE FEDERAL COURT/JUDGE CONTINUED THE HARM
1] 460 Cascade Drive, Mill Valley; Corporation Grant Deed from Kimberly

Development Co., to I oval D. Davis and Astarte Davis, his wife - Recorded
5/27/1959,

Bookl282 Page 357: Paid off 5/20/1965 - Deed of Reconveyance Book

1942 Page 238,239; and
2] 316 Miller Avenue, Mill Valley; Joint Tenancy Deed from Rose Adams
to I .oval D. Davis and Astarte Davis, his wife in joint tenancy, with full right of
survivorship - Recorded 4/1/1960, Book 1357 Page 7; Joint Tenancy Deed from

i

Kenneth A. Hulme and Edna O. Hulme, his wife to I .oval D. Davis and Astarte
Davis, his wife, in joint tenancy. with full right of survivorship, - Recorded

6

I

Case: 20-16136, 09/01/2020, ID: 11809936, DktEntry: 11, Page 7 of 18

9/26/1961, Book 1500 Page 464; Paid off 2/15/1961 - Deeds of Reconveyance Book
1436 Page 240 and Book 1435 Page 58; and
Homestead Boulevard, Mill Valley; Grant Deed from Annie A. Gordon,
31 7
widow, to Loyal D. Davis and Astarte Davis, his wife in joint tenancy, with full right
of survivorship - Recorded 2/2/1961, Book 1433 Page 195; [the following deeds were
for easements and more]; Grant Deed from Meda D. Childers and Edna M. Schumacher
to Loval D. Davis and Astarte Davis, his wife in joint tenancy - Recorded 6/16/1964,
Book 1826 Page 189,190; Joint Tenancy Deed from Edna M. Schumacher and Meda D.
Childers to Loval D. Davis and Astarte Davis, his wife, in joint tenancy, with full right
of survivorship - Recorded 1/18/1965, Book 1903 Page 111; Joint Tenancy Deed from
Edna M. Schumacher and Meda D. Childers to Loval D. Davis and Astarte Davis, his
wife in joint tenancy, with full right of survivorship. Book 1903 Page 112 - Recorded
1/18/1965; Corporation Grand Deed from Pacific Coast Title Company of Marin, a
Corporation to

T.nval D Davis and Astarte Davis, his wife as Joint Tenants -

Recorded 10/11/1965, Book 1988, Page 457; Paid off 4/28/1964, Deeds of
Reconveyance Book2456 Page 216 and Citicorp Savings #84036525; and
4] 4079 Paradise Drive, Tiburon; Corporation Grant Deed to Loyal D. Davis
and Astarte Davis, his wife as Joint Tenants - Recorded 10/1/1962, Book 1616 Page
301,301; Paid off 10/2/1964 - Deed of Reconveyance Book 1866 Page 632. The
Davis' home since 1962; and
5] 1024 Redwood Boulevard, Mill Valley Joint Tenancy Deed from K. H.
Powell and Wanda T. Powell, his wife, as Joint Tenants to Loval D._Davis and
Astarte Davis, his wife in joint tenancy, with full right of survivorship - Recorded
9/30/1963, Book 1731 Page 196,197; Paid off 12/19/1983 loan still in Plaintiffs
name - Deed of Full Reconveyance, #83063473; and
6] 80 Lincoln Avenue, Sausalito; Joint Tenancy Deed from Ralph P. Gomez,
a married man, as his sole and separate property to Loyal D. Davis and Astarte
Davis, his wife in joint tenancy, with full right of survivorship - Recorded 2/2_vl968,
Book 2192 Page 606; Paid off 9/11/1970 - Deeds of Reconveyance Book 2403 Page
20 and Book 2597 Page 236; Paid off 8/8/1972. loan still in Astarte's name.

7

Case: 20-16136, 09/01/2020, ID: 11809936, DktEntry: 11, Page 8 of 13

At no time did Astarte give Loyal Davis, her husband any authority to seiL
refinance, or otherwise concerning the above real property. Under .our agreement as
husband and wife anv transactions would have been invalid/void, and in breach of
Loval's fiduciary duties to Astarte.
As shown above most of the real property was paid off and un-encumbered as of
6/11/1969: fraudulent Grant Deed was created on 6/24/1969^.
Astarte Davis' claims there is evidence of participation and interest in the
commission of the continuing offense by the defendants. An inference must flow
logically from other evidence established in the action. Kidron v. Movie Acquisition
Corp. (1995) 40 Cal.App.4th at p.1583 [47 Cal.Rptr.2d 752].
The Davis' Agreement was a misrepresentation of fact by Loyal Davis to Astarte
Davis as found in 2016; which is relevant if it induced Astarte to alter her position to her
detriment. Stated in terms of justifiable reliance, materiality means that without the
misrepresentation, Astarte would not have acted as she did. Astarte did actually relied
•

upon the knowingly and willfully misrepresentation, which is shown herein that the
representation was an immediate cause of her conduct which alters her legal relations,
and that without such misrepresentation, she would not, in all reasonable probability,
have entered into the Agreement or any other transaction. Okun

Morton (1988) 203

Cal.App.3d 805, 828 [250 Cal.Rptr. 220],
Astarte justifiable reliance upon her husband did cause harm and tangible
damages in the loss of her properties and lifestyle. The Property listed above has an
estimated value between $25-30 Million dollars; which was earned during our marriage.
Concealed Properties: commercial properties all located Marin County. Loyal
Davis sole owner of the following concealed, and undeclared real property that was paid
for out of Loyal & Astarte's joint funds located at 7] 228 Marion Ave, Mill Valley,
Median value $1,398,471; 8] Tam Valley Lots (7) , A,B,C and D, Subdivision One,
Tamalpais Valley, Median value each lot $1,111,698; 9] Hazel Ave. Lot, Mill Valley,
APN 28-121-07, Median value $869,735; 10] 150 Hazel Ave., Mill Valley, APN 28121-08, Median value $1,087,334; 11] 357 Pine Hill, Mill Valley, Median value
$1,108,842. Other real properties unknown as this time - for discovery/, and

8

Case: 20-16136, 09/01/2020, ID: 11809936, DktEntry: 11, Page 9 of 13

These properties never left the control of Loyal Davis [now deceased]. Joan
Maher [aka Dawn Joan Davis] is personally now' in control of the above known stolen
properties; as well as the concealed property; also the rental income thereof for her own
personal gain not earned. Joan Maher [aka Dawn Joan Davis,

livein companion to

Loyal Davis]. She is also in control of real property owned by Loyal Davis at Lake
Tahoe, and she now lives at 4079 Paradise Dr., Tiburon, and has the enjoyment of the
Davis family home [owned since 1962],
Marin County Superior Court Case No. 53979 is VOID and unenforceable; as all
that followed. A reasonable person would think that enforcing a void judgment or orders
is and will cause continuing damages to Astarte. Which it did and continues to do under
*

judgments and orders of void cases.
In those years the judgment of a court was a decision that people respected, and
pypppred as final in the matter, and went on with their life; which is what Astarte and her
three sons did. That which was not the truth of the matter, as she learned in 2016,
Did the Federal District Court/Judge fail its duty to read Astarte Davis' pro se
42 U.S.C. § 1983 Complaint with Demand for Jury Trial; asking to annual the void cases
and all that followed under law; thereby returning Astarte Davis' properties; ALL which
was intentionally stolen; and being kept from her; which is a continuing denial of due
process and is a continuing manifest injustice.
Did the Federal District Court/Judge in case 20-cv-02657-RS abuse its
discretion in deciding to adopt the magistrate judge's report and recommendation? Astarte
believes he did.
Astarte Davis states: There are only two essential elements in a § 1983 action: (1)
the plaintiff must show that some person deprived it of a federal constitutional or
statutory' risht; and (2) that person must have been acting under color of state law. That
which Astarte has shown herein. Parrett v. Taylor, 451 U.S. 527, 5j5, 68 L. Ed. 2d 420,
101 S. Ct. 1908 (1981); American Legion Post 32 v. Walla Walla, 116 Wn.2d 1, 12, 802
P.2d 784 (1991); Jordan v. Oakville, 106 Wn.2d 122, 134, 720 P.2d 824 (1986). A local
Government is a "person" for purposes of § 1983. Monell v. Department of Social Servs.,
436 U.S. 658, 56 L. Ed. 2d 611, 98 S. Ct. 2018 (1978); Turngren v. King Cy.,104 Wn.2d
293,311,705 P.2d 258 (1985).

9

Case: 20-16136, 09/01/2020, ID: 11809936, DktEntry: 11, Page 10 of 18

C.

PROCEDURAL HISTORY OF THE CASE
Astarte Davis began her research in early 2016. On 3/11/2016 Astarte Davis did

engage Attorney David Chapman to file a case, base on her finding in Marin County
Superior Court Case 53979 [Judge Joseph Wilson]; he had to quit for personal reasons on
9/20/2016. On 10/25/2016 Attorney Neil Bloomfield was engaged, where he did file
Marin County Court Case No. 1701626 against Loyal Davis and Joan Maher [aka Dawn
*

Joan Davis], et al on 7/14/2017 [before the death of Loyal Davis 12/24/2017], Attorney
Bloomfield ask for an entry of dismissal; without prejudice which was filed on July 17,
2017 and granted: before Defendants answered: he quit as Astarte Davis could no longer
pay his fees.
On 1/4/2018 Astarte Davis in pro se continued her case in United States District
Court, Case No. 3:18-cv-00094-RS [Judge Richard Seaborg]; which continued the action
against the Respondents. On 7/27/2018 the Order denying Astarte Davis' Motion to
Amend and Granting Defendants' Motion to Dismiss, as the court lack subject matter
jurisdiction to hear the case. Because Astarte Davis could not give the court a violation of
her constitutional rights; only that there were acts under the color of law.
The federal court in case No. 3:18-cv-00094; Judge Richard Seeborg in his Order
dated 7/27/2018 for dismissal wrote on the last page. "The core of Astarte Davis'
complaint. To the extent her now fortv-vear-old claims can or should be adjudicated
anywhere, the most appropriate forum for doing so is the state court of original
jurisdiction targeted by defendants' alleged deception. Cf. Weisman v. Charles E. Smith
Mgmt., Inc. 829 F.2d 51 l(4th Cir. 1987). The Conclusion; dismiss and closed the case."
Astarte Davis filed her case in the Marin County

Superior Court of original

jurisdiction; Marin Superior Court Case CIV 1802890 [Judge Stephen Freccero] on
8/15/2018, continuing the case. All the uncontested material evidence above was ignored
granting in favor of the defendants who were the known wrongdoers; and in possession
by fraud and grand thief of all Astarte Davis' properties; failing his duty under law to
annual case No. 53979 and all that followed; due to intentional denial of protected
constitutional due process rights by courts/judges.
On 7/17/2019 Astarte Davis in pro se filed California Court of Appeal Ninth
Circuit

Case Al 57795 [Justice Mark Simon], Case CIV1802890 at issue. Court of

10

Case: 20-16136, 09/01/2020, ID: 11809936, DktEntry: 11, Page 11 of 18

Appeal dismiss on defendants Motion to Dismiss before opening brief was filed; thereby
the evidence of the case was unknown to the court.
On 10/16/2019 Astarte Davis in pro se filed in California Supreme Court Case
S258605 Case A157795 at issue: and on 12/11/2019 Petition for Review was denied.
42 U.S.C. § 1983 Complaint
On 4/13/2020 Astarte Davis in pro se filed in U.S. District Court Case 3:20-cv-

D.

02657-RS a Complaint with demand for jury trial under 42 United States Code § 198j for
the deprivation of her Civil Right, California Primary Rights, Due Process and Equal
Protection under the law secured by the Federal law and guaranteed by the Fourteenth
Amendment to the Constitution of the United States; California Constitution; the
Supreme Law of the Land; and as successor in interest and personal representative of her
late husband Loyal Davis CCP 337. All of which did continue to deprive Astarte of her
*

properties and the due course of justice in violation of 42 U.S. Code §§§ 198a, 1981.
1985.
Astarte Davis claims: Civil Rights — Deprivation — Sufficiency of Complaint. A
complaint is sufficient to state a cause of action under 42 U.S.C. § 198j if it alleges that
the defendants acted under color of state law. which they did; and that the defendant s
conduct deprived the plaintiff of a right protected by the federal constitution or a federal
statute, which it did; and denial of due process which caused the loss ofjurisdiction
thereby VOID cases, whereby the judgments and orders are unenforceable and all that
follows. The courts/iudges/iustices ignore the claims and failed to annual the cases,
orders and judgments thereof: and return all properties taken,
Astarte Davis claims Civil Rights — Deprivation — "Person — Local Government
- In General. A local government constitutes a "person" for purposes of 42 U.S.C. §
1983. which creates a cause of action when a person deprives another of a federal civil
right.
Astarte Davis is proceeding pro se\ therefore, the federal court/judge should have
construes her 1983 Complaint with all possible deference. See Haines v. Kerner. 404
U.S. 519. 520 (1972). Astarte has subject matter jurisdiction herein, Rulel2(b)(l). Her
claims are undisputed, judicial notice exhibits of uncontradicted relevant evidence to
the case.

11

Case: 20-16136, 09/01/2020, ID: 11809936, DktEntry: 11, Page 12 of 18

Astarte Davis' Appeal of Complaint in issue should not be dismissed unless it
set of facts in support of her claims
appears from the pleadings that she can prove no
which would entitle her to relief, Conley v. Gibson, 355 U.S. 41 (1957). Due to egregious
error in the denial of Astarte's protected federal constitutional Fifth and Fourteenth
Amendments rights, and her California Primary Rights by the defendants and the judges
under color of law. She seeks redress through §1983 and assert the violation of her
federal rights. Astarte further asserts her claims are cognizability as being real and
personal properties. Vt. Agency of Natural Res. v. U.S. ex rel. Stevens, 529 U.S. 765,
772-73 (2000). Astarte's has justiciability as U.S. Const. Art. Ill, Sec 2 is satisfied. Tutun
v. United States, 270 U.S. 568, 577 (1926). Astarte standing is further based on the
infringement of her Fourteenth Amendment rights. Pierce v. Society of Sisters, 268 U.S.
510, 535-36(1925).
Under Monroe v. Pape, 365 U.S. 167 (1971) Astarte is not required to exhaust
any available state court remedies before invoking section 1983, because the purpose of
this statute is to open federal courts to claims that federal rights were violated. McNeese
v. Board of Education, 373 U.S. 668 (1963).
If a state, federal or local official or agency deprives a person of state/federal
constitutional or local statutory rights, under § 1983 it allows Astarte the right to sue that
official under federal law regardless of whether a state remedy is available. AKHJL REED
AMAR. THE BILL OF RIGHTS 163-\80 (1998).
Astarte Davis BROUGHT her case back TO THE FEDERAL COURT in case
No. 3:20-cv-02657-RS PURSUANT TO U.S.CODE 42 USC §1983, for DEPRIVATION
OF HER RIGHTS PURSUANT TO THE U.S. CONSTITUTION, FIFTH and
FOURTEENTH AMENDMENT, CALIFORNIA CONSTITION, CALIFORNIA PRIMARY
RIGHTS, and SUPREME LAW OF THE LAND. With all her uncontradicted, judicial
notice material evidence relevant to the case that was missing in Judge Seaborg s case
No. 3:18-cv-00094.
F.xamnie shown above: would be the concise TRIAL MINUTES showing denial
of Astarte Davis' protected constitutional due process rights to be heard and give
evidence at trial, which did take away all her real property, and rental income thereof, her
personal property, fixtures, her home and lifestyle.

12

Case: 20-16136, 09/01/2020, ID: 11809936, DktEntry: 11, Page 13 of 18

All of which the federal court/judge chose to ignore. On 5/29/2020 in case No.
20-cv-02657

the

federal

court/judge

filed

its

Order

Adopting

Report

and

Recommendation of the magistrate judge; thereby terminating the case with prejudice.
That which was/is contrary to law; further failing his duty to read Astarte Davis's pro se
•

complaint under law. Astarte Davis filed her timely Objection's to magistrate judge’s
recommendation to dismiss her complaint on 5/26/2020. Thereby Astarte Davis did file
an appeal on 6/10/2020, case No. 20-16136.
On 6/12/2020 Clerk of Court filed a REFERRAL NOTICE to Judge Seeborg
wanting to know if Astarte Davis' appeal is frivolous or taken in bad faith; and if so
revocation of forma pauperis status is appropriate. The Order by Judge Seeborg which
terminating the case said nothing about frivolous or bad faith on 5/29/2020.

On

6/15/2020 after the case was terminated he filed an Order Revoking Astarte Davis' IN
FORM.i PAUPERIS STATUS, he knew that she lives on Social Security and considered
an elder: therefore would be a hardship. Astarte Davis did file on 6/19/2020 her timely
OBJECTION TO REFERRAL. Astarte Davis has a CONSTITUTIONAL right to sue and
be heard when her constitutional rights have been denied/violated; that which the Clerk
of Court is NOW denying her.
E.

IMMUNITY - ABSOLUTE IMMUNITY
Public employees are shielded from liability for civil damages for their

performance of discretionary functions; conduct must be objectively legally reasonable.
However, qualified immunity has been found to exist. Government officials
performing discretionary functions are shielded from all liability for civil damages if their
"conduct does not violate clearly established statutory or constitutional rights of which a
reasonable verson would have known." Harlow v. Fitzgerald, 457 U.S. 800, 818, 73 L.
Ed. 2d 396, 102 S. Ct. 2727 (1982); Front Royal, 708 F. Supp. at 1480. The issue of
immunity is a question of law. Mitchell v. Forsyth, 472 U.S. 511, 528, 86 L. Ed. 2d 411,
105 S. Ct. 2806(1985).
Astarte states government - torts - immunity - discretionary acts - are Question
of Law or Fact. Whether a public employee is entitled to qualified immunity for
performing discretionary functions is a question of law, which never been determine by
the case being heard on it merits.

13

Case: 20-16136, 09/01/2020, ID: 11809936, DktEntry: 11, Page 14 of 18

Astarte states constitutionally and in fact of law and judicial j'ulings, state
federal, maeistrales-iudees or anv government actors, clerk of court; state or federal
he held liable, if they violate any Citizen's protected constitutional rightsi
mav now
nrivileres. or immunities, or guarantees; including statutory civil rights. A judge is not
immune for tortious acts committed in a purely administrative, non-judicial capacity.
Forrester v. White,. 484 U.S. at 227-229, 108 S. Ct. at 544-545 (1987); Westfall v. Erwin,
108 S. Ct. 580 (1987); United States v. Lanier, 520 U.S. 259 (1997). UNDER LAW there
is no ABSOLUTE IMMUNITY for acts done in a knowing non-judicial capacity ■
Pursuant to #4.1 Section 1983: Astarte Davis is suing under Section 1983, a civil
rights law passed by Congress that provides
.

a remedy to persons who have been

deprived of their federal, and state constitutional and statutory' rights. Livadas v.
Bradshaw.512 U.S. 107,132 (1994); Chapman v. Houston Welfare Rights Org, 441 U.S.
600, 617 (explaining that 42 U.S.C, Sec. 1983 w'as enacted to create a private cause of
action for violations of the United States Constitution.)
Astarte states there is no statute of limitations contained within the language of 42
USC § 1983 for denial/violation of a state or federal constitutional rights. Under Forrester
v. White. 484 U.S. 219 (1988). A court judge/justice as shown herein does not have
absolute immunity from a damages suit under § 1983. See also Thomas v. Collins,

j23

U.S. 516. 531 (1945). The "act of filing suit against a governmental entity represents an
exercise of the right of petition and thus invokes constitutional protection. City of Long
Beach v. Bozek, 31 Cal.3d 527, at 533-534 (1982). The purpose is to deter public officials
from using the badge of their authority to violate persons constitutional rights and to
provide compensation and other relief to victims of constitutional deprivations when that
deterrence fails. Carey v. Piphus, 435 U.S. 247,253 (1978)
Astarte states every person who, under color of anv statute, ordinance, regulation,
custom, of usage, of anv state or territory, subjects, or causes to be subjected, any citizen
of the United States or other person within the jurisdiction thereof, to the deprivation of
anv rights, privileges, or immunities secured by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in equity, or other proper proceeding for
redress under lawr.

14

Case: 20-16136, 09/01/2020. ID: 11809936, DktEntry: 1U Page 15 of 18

Astarte states a complaint is sufficient to state a cause of action under 42 U.S.C. §
1983 if it alleges that the defendant acted under color of state law and that the defendant's
conduct deprived the plaintiff of a right protected by the federal constitution or a federal
statute.
Astarte states in general. A local government constitutes a "person" for purposes
of 42 U.S.C. § 1983, which creates a cause of action when a person deprives another of a
federal civil right.
F.

VOID CASES, ORDERS, JUDGMENTS LAW CONCERNING THIS CASE
Void cases are unenforceable - Marin Superior Court No. 53979, and all that

followed: Marin Superior Court Case No. 1802890; California Court of Appeal Case No.
A157795 and United States District Court Case No. 3:20-cv-02657-RS for the reasons
stated herein; and based on the following LAW OF VOID JUDGMENT. ORDERS and
DECISIONS.

Supreme Court Decisions on Void Orders
A judgment may not be rendered in violation of constitutional protections. The
validity of a judgment may be affected by a failure to give the constitutionally required
due process notice and an opportunity to be heard. Earle v. McVeigh, 91US 503, 23 L Ed
398. See also Restatements, Judgments ' 4(b).
The limitations inherent in the requirements of due process and equal protection
of the law extend to judicial as well as political branches of government, so that a
judgment may not be rendered in violation of those constitutional limitations and
guarantees. Hanson v Denckla, 357 US 235, 2 L Ed 2d 1283, 78 S Ct 1228.
A void judgment is not entitled to the respect accorded a valid adjudication, but
mav be entirely disregarded, or declared inoperative by any tribunal in which effect is
sought to be given to it. It is attended by none of the consequences of a valid
adjudication. It has no legal or binding force or efficacy for any purpose or at any place.
... It is not entitled to enforcement ... All proceedings founded on the void judgment are
themselves regarded as invalid. 30A Am Jur Judgments " 44, 45. It is a fundamental
doctrine of law that a party to be affected by a personal judgment must have his day in

15

Case: 20-16136, 09/01/2020, ID: 11809936, DktEntry: 11, Page 16 of 18

court, and an opportunity to be heard. Renaud v. Abbott, 116 US 277, 29 L Ed 629, 6 S Ct
1194; Earle v McVeigh, 91 US 50j, 23 L Ed j98.
No Opportunity to Be Heard
A judgment of a court without hearing the party or giving him an opportunity, to
he heard is not a judicial determination of his rights. Sabanego v. Maverick, 124 US 261,
31 L Ed 430, 8 S Ct 461, and is not entitled to respect in any other tribunal. A void
judgment does not create any binding obligation. Federal decisions addressing void state
Feuerstein (1940) 308 US 433, 60 S Ct 34^, 84 L ed
court judgments include Kalb
370: Ex parte Rowland WZ) 104 U.S. 604. 26 L.Ed. 861: "A judgment which is void
upon its face, and which requires only an inspection of the judgment roll to demonstrate
its wants of vitality is a dead limb upon the judicial tree, which should be lopped off, if
the power to do so exists." People v. Greene, 71 Cal. 100 [16 Pac. 197, 5 Am. St. Rep.
448]. "If a court grants relief, which under the circumstances it hasnt any authority to
grant, its judgment is to that extent void." (1 Freeman on Judgments, 120c.) An illegal
order is forever void.
Orders Exceeding Jurisdiction
An order that exceeds the jurisdiction of the court is void, and can be attacked in
any proceeding in any court where the validity of the judgment comes into issue. (See
Rose v. Himely (1808) 4 Cranch 241, 2 L ed 608; Pennoyer v. Neff (1877) 95 US 714, 24
L ed 565; Thompson v. Whitman (1873) 18 Wall 457, 21 1 ED 897; Windsor v. McVeigh
(1876) 93 US 274. 23 L ed 914; McDonald v. Mabee (1917) 243 US 90, j7 Set j4j, 61 L
ed 608.
Void Orders and Judgments
"If a court grants relief, which under the circumstances it hasn't any authority to
grant, its judgment is to that extent void." (1 Freeman on Judgments, 120c.)

A

void judgment is no judgment at all and is without legal effect." (Jordon v. Gilligan, 500
p 2d 701, 710 (6th Cir. 1974) "a court must vacate any judgment entered in excess of its
jurisdiction." (Lubben v. Selective Service System Local Bd. No. 27, 453 F.2d 645 (1st
Cir. 1972).

16

Case: 20-16136, 09/01/2020, ID: 11809936, DktEntry: 11, Page 17 of 13

A void judgment does not create any binding obligation. Federal decisions
addressing void state court judgments include Kalb v. Feuerstein (1940) 308 US 433, 60
S Ct 343. 84 L ed 370. Federal judges issued orders permanently barring Stich from filing
any papers in federal courts, After Judges Robert Jones and Edward Jellen corruptly
seized and started to liquidate Stich’s assets. Judge Jones issued an unconstitutional order
barring Stich from filing any objection to the seizure and liquidation.
Void Orders Can Be Attacked At Any Time
An order that exceeds the jurisdiction of the court, is void, or voidable, and can be
attacked in any proceeding in any court where the validity of the judgment comes into
issue. (See Rose v. Himely (1808) 4 Cranch 241, 2 L ed 608; Pennoyer v. Neff{ 1877) 95
US 714, 24 L ed 565; Thompson v. Whitman (1873) 18 Wall 457, 21 1 ED 897; Windsor
v. McVeigh (1876) 93 US 274, 23 L ed 914; McDonald v. Mabee (1917) 243 US 90, 37
Set 343, 61 L ed 608. U.S. v. Holtzman. 762 F.2d 720 (9th Cir. 1985) ("Portion of
judgment directing defendant not to import vehicles without first obtaining approval ...
was

not appropriately limited in duration and, thus, district court abused its discretion by

not vacating it as being prospectively inequitable." Id at 722.

For this case to continue without remedy is a grave miscarriage of justice, a
continuing denial of Astarte Davis’ protected federal constitutional rights under 28 USC
1331; United States v. Beggerly, 524 U.S. 38, 46-47 (1998).
G.

GOOD FAITH STANDARD
The standard set forth in Harlow supplants the good faith standard previously

applied. Cf. Wood v. Strickland, 420 U.S. 308, 322, 43 L. Ed. 2d 214, 95 S. Ct. 992
(1975); Harper v. Stale. 110 Wn.2d 873, 884, 759 P.2d 358 (1988); Washington v.
Harper. 494 U.S. 210, 110 S. Ct. 1028, 108 L. Ed. 2d 178 (1990). Qualified immunity is
not available unless the government official can show- that his or her conduct was
objectively legally reasonable. Anderson v. Creighton, 483 U.S. 635, 641, 97 L. Ed. 2d
523, 107 S. Ct. 3034 (1987). Thus, a. subjective, good faith belief that the conduct
complained of was not unconstitutional will not suffice to prove immunity'; the defendant
must show that his or her conduct was objectively reasonable. Astarte Davis’ case under
42 U.S.C.§ 1983 is for the factfinder.

17

Case: 20-16136, 09/01/2020, ID: 11809936. DktEntrv: 11, Page 18 of 13

Any reasonable person would think a 42 U.S.C. § 1983 case for Astarte Davis'
denial of protected constitutional rights of due process would not be STAYED and
ignored. It should be allowed to move forward for the justice that has been refused at
every turn of the case.
Astarte asserts The MANIFEST INJUSTICE DOCTRINE is appropriate and
should be applied to HEREIN ISSUES.. Bradley v. Sch. Bd. of Richmond, 416 U.S. 696.
711 (1974); In re Clark, Supreme Court of California 5022475 (1992).

CONCLUSION
For the above reasons Astarte Davis respectfully ask this Court to dismiss the
Stav; to allow her to move forward on Appeal and file her Opening Brief.

Dated 8/28/2020
\\: \
\

\>\!

\j

i

i
/

■

Respectfully submitted,
AstaijaDa^is, Ip pro se
Plaintiff - Appellant

NOTE;

DISTRICT COURT did not serve any defendants in the case as was
appropriate under granted fee waiver; thereby there is no Certificate of
Service attached.

18

APPENDIX A-EX 6
Declaration

8

4J5 ^ ^
Case: 20-16136, 09/09/2020, ID: 11817857, DktEntry: 12, Page 1 of 8
h

No: C.A. No. 20-16136

$cP 0 9 2020
•'LEO.___
OCKE76D
DATS

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ASTARTE DAVIS,
Plaintiff - Appellant,
v.

JOSEPH WILSON: STEPHEN FRECCERO; MARK SIMONS
Defendants - Appellees.
On Appeal from the United States District Court
for the Northern District of California
No. 3:20-cv-02657-RS
Honorable Richard Seeborg

ASTARTE DAVIS’ DECLARATION on THE MANIPULATION OF
-----THE DOCKET and more IN SUPPORT OF HER-----------MOTION FOR RELIEF FROM STAY ON APPEAL

ASTARTE DAVIS, in Pro Se
PO Box 306
Gualala, CA 95445
Telephone No. 707-785-3580 [new]
e-mail: astartedavis@hotmail.com

WiTiA!

Case: 20-16136, 09/09/2020, ID: 11817857, DktEntry: 12, Page 2 of £

INTRODUCTION
This United States Court of Appeals through Molly Dwyer, Clerk
U.S. Court of Appeals Ninth Circuit, and her sub-clerks are doing everything
they can to keep this Pro Se Litigates from coming to this Court for justice;
in Appeals Case No. 20-16136 as shown below.

UNDISPITED MATERIAL EVIDENCE RELEVENT TO THE
FACTS OF CASE AT ISSUE
Molly Dwyer, Clerk and sub-clerks by their intentional and knowing
wrongdoing to the extent of manipulation of the Court's Docket; even when
there is a right of appeal under law. Astarte has stated her right of appeal for
denial of United States Constitution, California Constitution, Civil Rights,
California Primary Rights in her 42 U.S.C. Sec. 1983 Complaint. The United
States District Court, Judge Richard Seeborg did ignore Astarte's Complaint
and adopted the Magistrate Judge's Report and Recommendation which was
contrary' to law for violation of protected constitutional rights. Thereby
Astarte appealed to this Court. Now Astarte is being denied by the Clerk of
the Court Molly Dwyer her right of appeal, under her stay of appeal.

UNITED STATES COURT OF APPEALS' DOCKET
On 6/10/2020 Docket 1 states: Docketed Cause and entered appearance
of pro se Appellant. Which was Astarte's NOTICE OF APPEAL.
On 6/10/2020 Astarte received a Time Schedule Order which IS NOT
SHOWN ON THE DOCKET

2

Case: 20-16136, 09/09/2020, ID: 11817857, DktEntry: 12, Page 3 of 8

On 6/12/2020 Docket 2 states: Clerk filed its referral notice to Judge
Seeborg, District Court Case 3:20-cv-02657-RS for determination whether in
forma pauperis status should continue for this appeal.
On 5/29/2020 Case 3:20-cv-02657-RS had been CLOSED/
TERMANATED WITH PREJUDICE.
On 6/19/2020 Docket 3 states: Astarte filed her OBJECTION TO
REFERRAL CASE 3:20-cv-02657 IS NOT FRIVOLOUS OR TAKEN IN BAD
FAITH., Judge Seeborg did not call Astarte case frivolous or taken in bad
faith in his Order dated 5/29/2020.
On 6/22/2020 Docket 4 states: Astarte filed a letter of case history. The
LETTER was filed stamped as Received by Molly Dwyer, Clerk on
6/24/2020.
On 6/22/2020 Docket 5 states: Received copy of District Court order
filed 6/15/2020 IFP status is hereby Revoked.
After case is CLOSED/TERMINATED with no mention of
FRIVOLOUS OR BAD FAITH by Judge Seeborg before termination of case.
On 6/24/2020 Docket 6 states: Clerk's Order on review of the
DISTRICT COURTS DOCKET REFLECTS THAT THE DISTRICT
COURTHAS CERTIFIED THAT THIS APPEAL IS NOT TAKEN IN
GOOD FAITH AND IS FRIVOLOUS ....
On 7/1/2020 Docket 7 states: filed Astarte's in Forma Pauperis.
On 7/1/2020 Docket 8 states: filed Astarte's statement.
On 7/1/2020 Astarte did file a statement entitled "STATEMENTBY
ASTARTE DA VIS OF THE TRUTH OF THE MATTER IN ISSUE; which
went on to state uncontradicted material evidence relevant to the case at issue.
Evidence that was IGNORED by the courts/judges as well as VOID CASES;
which was denial of protected fundament constitutional Fifth and Fourteenth
3

Case: 20-16136, 09/09/2020, ID: 11817857, DktEntry: 12, Page 4 of 6

Amendment of due process rights at trial to be heard. As shown in the concise
trial minutes of the court. That which did take from Astarte considerable real
property; rental income therefrom; her home and lifestyle.
There was further concealed real property; and a written Agreement
between husband and wife concerning fiduciary duties of the Davis Estate
which was fraud by her husband, who was never going to honor the
Agreement. A fraudulent grant deed filed against a Restraining Order of the
court. This and more is written with full description in Astarte 42 U.S.C. Sec.
1983 Complaint with Judicial Notice exhibit before Judge Richard Seeborg.
Which is on APPEAL in this Court. It is Abuse of Discreation by this Court,
Clerk Molly Dwyer, and sub-clerks for not letting this appeal go forward
On 7/28/2020 Docket 9 states: Astarte's letter re: Notice and request.
On 7/28/2020 Docket 10 states: Astarte did file a Request for
Extension of time and to be given a new schedule date for filing her Opening
Brief. The Court then said "this appeal is stayed.
On 9/1/2020 Docket 11 states: Filed Appellant Astarte Davis statement
that the appeal should go forward.
Astarte did not file a "statement." Astarte has of yet to receive her filed

APPEAL TO GO FORWARD.

FRAP 45 - CLERK’S DUTIES
Molly Dwyer, Clerk of Court, 9th Circuit Court of Appeals
Clerk of Court, Molly Dwyer did violate her OATH OF OFFICE;
neither the clerk nor any deputy clerk may act as an attorney while in office.
Would not the following conduct be considered overreach in the capacity as
Clerk of the Court?
4

Case: 20-16136, 09/09/2020, ID: 11817857, DktEntry: 12, Page 5 of 8

On 6/24/2020 Molly Dwyer did act in the capacity of her office and as
an attorney to collect information from Astarte's file in case number 3:20-cv02657-RS as to the her remarks on 7/1/2020: Clerk's Order states: on review
of the DISTRICT COURT’S DOCKET REFLECTS THAT THE DISTRICT
COURT HAS CERTIFIED TFLAT THIS APPEAL IS NOT TAKEN IN
GOOD FAITH AND IS FRIVOLOUS ....
To Astarte knowledge and information there was no such certification
placed on the district courts docket or otherwise. Molly Dwyer statement is
untrue and done with MALICE, OPPRESSION AND FRA UD TO HARM
ASTARTE BY NOT LETTING HER APPEAL MOVE FORWARD AS SHE
HAS A RIGHT UNDER LA W FOR DENIAL OF HER FUNDAMENTAL
CONSTITUTION RIGHTS AS AN AMERICAN
RIGHTS TO EQUALITY AND NON-DISCRIMINATION
Molly Dwyer Clerk the U.S. Court of Appeals is to maintain a docket
and has the duty to record all papers filed by a pro se, which the Docket
does not reflect Astarte's pleading by their name; as they would have if she
had been an attorney. This right specifies that an individual should not be
treated differently by the law. Not doing what is right violates Astarte rights
to equality which is

.w.

has the same right as an Attorney to have her pleading filed properly on the
Docket. By not doing so her pleading can be treated in any manner as they
have been; uniustlv; an unconstitutionally. These are fundamental rights
because they guarantee that all the other rights in the Constitution will be
applied to everyone universally and equally.
Molly Dwyer and her staff has denied Astarte her fundamental
protected right of due process of law by knowingly obstructing justice and
blocking her appeal to be heard.
5

Case: 20-16136, 09/09/2020, ID: 11817857, DktEntry: 12, Page 6 of 8

MOLLY DWYER, CLERK OF COURT, 9TH CIRCUIT COURT OF
APPEALS - December 13, 2015 Letter to the Department of Justice
By Joanenice Shields, Attorney
Molly Dwyer, the Clerk of Court for the 9th Circuit Court of Appeals
was responsible for and controlled the Court of Appeals Scheduling, Court
Calendar, Docketing of Appeals Cases, Assignment of Merit Panel Judges,
and was responsible for Procedural Motions and the procedural functions of
the 9th Circuit Court of Appeals as the Clerk of Court in her official
capacity. It has been documented 11 different Circuit Judges agreed to
commit federal criminal crimes against the Constitution, Federal Laws,
Federal Rights, and against their Oaths of Office. Molly Dwyer and
Governmental Staff within the Clerk’s Office committed the criminal
activity and ascribed the unlawful obstruction ofjustice activities to the 11
different Circuit Court Judges’ names respectively with the 11 Judges’
knowledge. Perhaps the Clerk of Court Molly Dwyer controlled the entire
fraud on behalf of the Corporate Defendants in a Civil Rights lawsuit under
the RICO ACT; with the help of her Court Staff. Any requests being made
to the Court of Appeals had to be sent through the Clerk of Court’s Office
and Molly Dwyer had control over all procedural functions of the Court of
Appeals. The obstruction of justice activity is ascribed to each individual
Circuit Judges Name respectively, but each unlawful action began with the
Clerk of Court’s Office actions first. Each of the 11 Circuit Judges’ Names
were assigned to specific Appeal Case No.’s, and then their respective
names were affixed to Fraudulent Court Orders that went against Federal
Laws, Federal Statutes and that went against Federal Rules of Appellate
Procedures. Each Federal Circuit Court Judge was brought into the Criminal
Activity, providing aid and abetting support to the criminal obstruction of

6

Case: 20-16136, 09/09/2020, ID: 11817857: DktEntry: 12, Page 7 of £

justice activity based on the Case Assignments made to them respectively by
the Clerk of Court and by the fraudulent Court Orders being made using
their names respectively. The Fraudulent Orders were a series of either
“One Sentence” “Bare Order Denials” without cause or reasons, or just
fraudulent Orders that had absolutely no basis in actual facts. The
fraudulent orders contradicted the District Court Records, ignored evidence
of fraud by the Defendant-Appellees, ignored outright mendacities made
within the Appellees Answering Briefs, went against Federal Rules of Civil
and Appellate Procedures and went against Federal Statutes and Federal
Laws that each Judge swore by Oath to uphold.
The Obstruction of Justice activity was more than likely carried out
at the directive of the Clerk of Court, Molly Dwyer. Molly Dwyer used
unlawful procedural functions and tricks to delay, defer and just outright
block the Appeals process and the lawful administration of justice in each
•

Appeal Case that I brought before the Court of Appeals against the
Defendant-Appellees and against the District Court Judges.
Molly Dwyer’s Office Refused (multiple times) to carry out routine
procedural functions like Docketing the Appeal Case Title under the District
"Court Case Title of Joanenice~Shields v. Insight Enterprises,Tncret al,--------District Court Case No. 2:11-CV-02058-SRB as required by Federal Rules
of Appellate Procedures (FRAP) Rule 12 (a) Docketing the Appeal, which
states “Upon receiving the copy of the notice of appeal and the docket
entries from the district clerk under Rule 3(d) the circuit clerk must docket

•

the appeal under the title of the district-court action”. Molly Dwyer’s
Office, obstructed justice and blocked an Appeal against Insight Enterprises,
Inc. et al for my RICO Lawsuit.

7

Cass: 20-16136, 09/09/2020, ID: 11817857, DktEntry: 12, Page 8 of 6

CONCLUSION
This is what Astarte, in Pro Se is up against to simply have her
case heard on appeal and have a just and fair hearing in her favor.
Astarte respectfully submits this Declaration to her MOTION FOR
RELIEF FROM STAY ON APPEAL asking this Court for the right to file her
Opening Brief and move forward on apppal.
\

\ \

A

V
:\i K17* \ ft V b\rv

Dated September 5, 2020

v\

Astarte'Davis, Plaintiff, Appellant
In Pro Se

8

<
4

APPENDIX A - EX 7
ORDER by FERNANDEZ, BYBEE, and BADE Cir. Judges

9

Case 3:20-cv-02657-RS

Document 24 Filed 02/23/21 Page 1 of 2

united states court of appeals
FOR THE NINTH CIRCUIT

FILED
FEB 23 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

AST ARTE DAVIS,

No. 20-16136

Plaintiff-Appellant,
v.

JOSEPH WILSON, individually and in his
official capacity as a Judge in the Marin
County Superior Court of the State of
California; et al.,

D.C. No. 3:20-cv-02657-RS
Northern District of California,
San Francisco
ORDER

Defendants-Appellees.
Before:

FERNANDEZ, BYBEE, and BADE, Circuit Judges.

The district court certified that this appeal is frivolous and is not taken in
good faith and revoked appellant’s in forma pauperis status. See 28 U.S.C.
§ 1915(a). On June 24, 2020, the court ordered appellant to explain m wntmg why
this appeal should not be dismissed as frivolous. See 28 U.S.C. § 1915(e)(2) (court
shall dismiss case at any time, if court determines it is frivolous or malicious).
Upon a review of the record and the response to the court ’s June 24. 2020
order, we conclude this appeal is frivolous. We therefore deny appellant’s motion
to proceed in forma pauperis (Docket Entry No. 7) and dismiss this appeal as
frivolous, pursuant to 28 U.S.C. § 1915(e)(2).
Ill

Case 3:20-cv-02657-RS Document 24 Filed 02/23/21 Page 2 of 2

All other pending motions are denied as moot.
DISMISSED.

2

20-16136

<
<:

APPENDIX A-EX 8
MANDATE

10

{z or z)
Case: 20-16136, 03/17/2021, ID: 12043861, DktEntry: 22, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAR 17 2021
MOLLY C. DWYER. CLERK.
U.S. COURT OF APPEALS

ASTARTE DAVIS,
Plaintiff - Appellant,
v.
JOSEPH WILSON, individually and in
his official capacity as a Judge in the
Marin County Superior Court of the
State of California; et al.,

No. 20-16136
D.C. No. 3:20-cv-02657-RS
U.S. District Court for Northern
California, San Francisco
MANDATE

Defendants - Appellees.

The judgment of this Court, entered February 23, 2021, takes effect this
date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Jessica Flores
Deputy Clerk
Ninth Circuit Rule 27-7

No.

IN THE
SUPREME COURT OF THE UNITED STATES

RICHARD SEEBORG, Judge UNITED STATES DISTRICT COURT FOR THE
NINTH CIRCUIT

APPENDIX B

APPENDIX B
APPENDIX B - United States District Court Ninth Circuit NO. 3:20-cv-02657-RS
Void Case 53979 History at issue Case No. 3:20-cv-02657-RS
Void Judge Stephen Freccero - Case No. CIV 1802890
Void case at issue in Judge Seeborg's case No: 3:20-cv-02657-RS.
Void Justice Mark Simons - Appeal Case No. A157798
Void case at issue in Judge Seeborg's case No: 3:20-cv-02657-RS.
Page

App. B-l

Docket ................................................................

6

App. B-2

Report and Recommendations.............................

6

App. B-3

Objections to Report and Recommendations......

6

App. B-4

Order Adopting Report and Recommendation....

6

App. B-5

US Court of Appeals Referral Notice..................

6

App. B-6

Order Revoking Forma Pauperis.........................

6

App. B-7

Court Notice - Case Closed 5/29/2020................

6

App. B-8

Complaint for Annulment....................................

7

App. B-9

Allabaugh Marriage.............................................

7

App. B-10

Divorce Case Off Calendar.................................

8

App. B-ll

Order Declaring Respondent's Claim Established

8

App. B-12

Betty Davis Grant Deed......................................

9

App. B-l3

Restraining Order................................................

9

App. B-l4

460 Cascade Dr., Mill Valley..............................

11

App. B-l5

316 Miller Ave., Mill Valley...............................

11

App. B-l6

7 Homestead Blvd., Mill Valley..........................

12

App. B-l7

4079 Paradise Dr., Tiburon.................................

12

App. B-l8

1024 Redwood Blvd., Mill Valley................. ....

12

App. B-l9

80 Lincoln Ave., Sausalito..................................

12

App. B-20

228 Marion Ave., Mill Valley.............................

13

App. B-21

Tam Valley Lots, Tamalpais Valley....................

13

App. B-22

Hazel Ave. Lot, Mill Valley................................

13

App. B-23

150 Hazel Ave. Mill Valley................................

13

App. B-24

357 Pine Hill, Mill Valley...................................

13

2

App. B-25

First Day of Trial....

14

App. B-26

Second Day of Trial

14

App. B-27

Third Day of Trial..

14

App. B-28

Fourth Day of Trial.

14

App. B-29

Sixth Day of Trial...

15

App. B-30

Finding of Fact and Conclusions - Attorney Kaufmann... 15

App. B-30

Grant Deed for 80 Lincoln to Homes by Loyal

15

App. B-31

Judgment Case 35979......................................

16

App. B-32

Reporter's Transcript.......................................

20

App. B-33

Order Case A157798 .......................................

22

App. B-34

Loyal Davis v. Robert Nicco Case 123736 .....

22

3

APPENDIX B-l Docket for Case

4

Page 1 of 4

CAND-ECF

ADRMOP,CLOSED,ProSe,RELATE

U.S. District Court
California Northern District (San Francisco)
CIVIL DOCKET FOR CASE #: 3:20-cv-02657-RS

Davis v. Wilson et al
Assigned to: Judge Richard Seeborg
Relate Case Case: 3:18-cv-00094-RS
Case in other court: 20-16136
Cause: 42:1983 Civil Rights Act

Date Filed: 04/13/2020
Date Terminated: 05/29/2020
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

Plaintiff
Astarte Davis

represented by Astarte Davis
P.O. Box 306
Gualala, CA 9545
(707) 785-2972
Email: astartedavis@hotmail.com
PRO SE

V.
Defendant
Joseph Wilson
individually and in his official capacity
as a Judge in the Marin County
Superior Court of the State of
California
Defendant
Stephen P. Freccero
individually and in his official capacity
as a Judge in the Marin County
Superior Court of the State of
California
Defendant
Mark B. Simons
individually and in his official capacity
as a Justice and Acting P.J. in the Court
ofAppeal of the State of California

Date Filed

#

Docket Text

04/13/2020

https://ecf.cand.uscourts.gov/cgi-bin/DktRpt.pl7177880140324572-L_l_0-l

3/20/2021

Page 2 of 4

CAND-ECF

COMPLAINT and Demand for Jury Trial against Stephen P. Freccero, Mark B.
Simons. Joseph Wilson (Filing fee IFPP). Filed by Astarte Davis. (Attachments:
# i Civil Cover Sheet, # 2 Envelope) (gbaS, COURT STAFF) (Filed on
4/13/2020) (Entered: 04/17/2020)
04/13/2020

7

Request for Judicial Notice re 1 Complaint filed by Astarte Davis. (Related
document(s) i) (gbaS, COURT STAFF) (Filed on 4/13/2020) (Entered:
04/17/2020)

04/13/2020

3

MOTION for Leave to Proceed in forma pauperis filed by Astarte Davis. (gbaS,
COURT STAFF) (Filed on 4/13/2020) (Entered: 04/17/2020)

04/13/2020

6 Initial Case Management Scheduling Order with ADR Deadlines: Case
Management Statement due by 7/9/2020. Initial Case Management
Conference set for 7/16/2020 11:00 AM in San Francisco, Courtroom B,
15th Floor. (Attachments: # I Standing Order) (gbaS, COURT STAFF)
(Filed on 4/13/2020) (Entered: 04/20/2020)

04/13/2020

7

Notice of Assignment of Case to Magistrate Judge. (gbaS, COURT STAFF)
(Filed on 4/13/2020) (Entered: 04/20/2020)

04/20/2020

4

NOTICE AND ORDER: The attached notice and order notifies the plaintiff
of resources available, attaches the district’s handbook for litigants who do
not have a lawyer, includes a flyer for contacting the court's help desk and
instructs the plaintiff about serving the defendants. Signed by Judge Laurel
Beeler on 04/20/2020. (Attachments: # l_ Certificate/Proof of Service, # 2
Self Help Flyer, # 3 Pro Se Handbook)(ejkS, COURT STAFF) (Filed on
4/20/2020) (Entered: 04/20/2020)

04/20/2020

5

Order by Magistrate Judge Laurel Beeler granting 3 Motion for Leave to
Proceed in forma pauperis. (Attachments: # 1 Certificate/Proof of Service)
(ejkS, COURT STAFF) (Filed on 4/20/2020) (Entered: 04/20/2020)

04/23/2020

8

CONSENT/DECLINATION to Proceed Before a US Magistrate Judge by
Astarte Davis.. (Attachments: # l Envelope) (gbaS, COURT STAFF) (Filed on
4/23/2020) (Entered: 04/23/2020)

05/15/2020

9 REPORT AND RECOMMENDATIONS. ORDER REASSIGNING CASE.
The undersigned refers this case first to Judge Seeborg for a determination
about whether the case should be related to case number 18-cv-00094-RS. If
Judge Seeborg determines that the cases are not related, the undersigned
directs the clerk of court to reassign this case to a randomly selected district
judge. In either event, the undersigned recommends that the newly assigned
judge dismiss the case with prejudice.
Objections due by 5/29/2020.
Signed by Judge Laurel Beeler on 05/15/2020. (ejkS, COURT STAFF)
(Filed on 5/15/2020)
Any non-CM/ECF Participants have been served by First Class Mail to the addresses of record listed on the Notice of
Electronic Filing (NEF)

(Entered: 05/15/2020)

https://ecf.cand.uscourts.gov/cgi-bin/DktRpt.pl7177880140324572-L_l_0-l

3/20/2021

Page 3 of 4

CAND-ECF
05/15/2020

10 ORDER REASSIGNING CASE. Case reassigned using a proportionate,
random, and blind system pursuant to General Order No. 44 to Judge
Richard Seeborg for all further proceedings. Magistrate Judge Laurel
Beeler no longer assigned to case,. Signed by Clerk on 05/15/2020. (mbcS,
COURT STAFF) (Filed on 5/15/2020)
Any non-CM/ECF Participants have been serv ed by First Class Mail to the addresses of record listed on the Notice of
Electronic Filing (NEF)

(Entered: 05/15/2020)
05/18/2020

11

05/21/2020

12 ORDER RELATING CASES AND REQUESTING BRIEFING. Signed by
Judge Richard Seeborg on 5/21/2020. (cl, COURT STAFF) (Filed on
5/21/2020)

REQUEST for assignment and to have defendants served by Astarte Davis.
(mclS, COURT STAFF) (Filed on 5/18/2020) (Entered: 05/21/2020)

Any non-CM/ECF Participants have been serv ed by First Class Mail to the addresses of record listed on the Notice of
Electronic Filing (NEF)

(Entered: 05/21/2020)
05/26/2020

13

05/29/2020

14 ORDER ADOPTING REPORT AND RECOMMENDATION. Signed by
Judge Richard Seeborg on 5/29/2020. (cl, COURT STAFF) (Filed on
5/29/2020)

OBJECTIONS to 9 Report and Recommendations by Astarte Davis. (gbaS,
COURT STAFF) (Filed on 5/26/2020) (Entered: 05/27/2020)

Any non-CM/ECF Participants have been serv ed by First Class Mail to the addresses of record listed on the Notice of
Electronic Filing (NEF)

(Entered: 05/29/2020)
06/08/2020

15 NOTICE OF APPEAL to the 9th Circuit Court of Appeals filed by Astarte
Davis. Appeal of J_4 Order Adopting Report and Recommendations. (wsnS,
COURT STAFF) (Filed on 6/8/2020) (Additional attachment(s) added on
6/9/2020: # I Notice of Appeal) (gbaS, COURT STAFF). (Entered: 06/09/2020)

06/10/2020

18

NOTICE to Forward Record on Appeal by Astarte Davis. (gbaS, COURT
STAFF) (Filed on 6/10/2020) (Entered: 06/15/2020)

06/12/2020

16

USCA Case Number 20-16136 for 15 Notice of Appeal, filed by Astarte Davis.
(gbaS, COURT STAFF) (Filed on 6/12/2020) (Entered: 06/12/2020)

06/12/2020

1.7 USCA REFERRAL NOTICE as to j_5 Notice of Appeal, filed by Astarte Davis.
(gbaS, COURT STAFF) (Filed on 6/12/2020) (Entered: 06/15/2020)

06/15/2020

19 ORDER REVOKING IN FORMA PAUPERIS STATUS. Signed by Judge
Richard Seeborg on 6/15/2020. (cl, COURT STAFF) (Filed on 6/15/2020)
Any non-CM/ECF Participants have been serv ed by First Class Mail to the addresses of record listed on the Notice of
Electronic Filing (NEF)

(Entered: 06/15/2020)
06/18/2020
10/08/2020

Copy of _[9 Order Revoking in Forma Pauperis Status mailed to 9th Circuit.
gbaS, COURT STAFF) (Filed on 6/18/2020) (Entered: 06/18/2020)
20

https://ecf.cand.uscourts.gov/cgi-bin/DktRpt.pl7177880140324572-L_l_0-l

3/20/2021

Page 4 of 4

CAND-ECF

US Supreme Court Notice that a petition for a writ of certiorari was filed on
September 28.2020 and placed on the docket October 6, 2020 as No. 20-5919.
(gbaS, COURT STAFF) (Filed on 10/8/2020) (Entered: 10/08/2020)_______
NOTICE by Astarte Davis (Attachments: # l Envelope) (gbaS, COURT
STAFF) (Filed on 10/15/2020) (Entered: 10/20/2020)

10/15/2020

'.21

12/15/2020

22

US Supreme Court Notice that the petition for a writ of certiorari before
judgment is denied. (gbaS, COURT STAFF) (Filed on 12/15/2020) (Entered:
12/15/2020)______________________________ ______________________

01/21/2021

23

Letter from Astarte Davis. (gbaS, COURT STAFF) (Filed on 1/21/2021)
(Additional attachment(s) added on 1/25/2021: # 1 Envelope) (gbaS, COURT
STAFF). (Entered: 01/25/2021)

02/23/2021

24

ORDER of USCA as to 15 Notice of Appeal to the Ninth Circuit, filed by
Astarte Davis. (gbaS, COURT STAFF) (Filed on 2/23/2021) (Entered:
02/23/2021)

03/17/2021

25 MANDATE of USCA as to 15 Notice of Appeal to the Ninth Circuit No. 2016136.
The judgment of this Court, entered February 23, 2021, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule 41(a)
of the Federal Rules of Appellate Procedure.
(wsnS, COURT STAFF) (Filed on 3/17/2021) (Entered: 03/17/2021)

PACER Sendee Center
Transaction Receipt
03/20/2021 07:58:10
PACER
Login:

astartedavis:5450995:0 Client Code:

Description:

Docket Report

Billable
Pages:

5450995

Criteria:

3:20-cv-02657RS

Cost:

0.30

Search

https://ecf.cand.uscourts.gov/cgi-bin/DktRpt.pl7177880140324572-L_l_0-l

3/20/2021

APPENDIX B-2

Report and Recommendations

5

Case 3:20-cv-02657-LB Document 9 Filed 05/15/20 Page 1 of 6

1/

uIts
V

i
!
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

NORTHERN DISTRICT OF CALIFORNIA

10

San Francisco Division

11
co
t; c

ASTARTE DAVIS,
Plaintiff,

12

v.

6 ^"3 13

'o o
•c
■S c*-

14

o ts

15

C/3

JOSEPH WILSON, et al.,

O

C/3

2 SS

1°

Case No. 20-cv-02657-LB

Defendants.

ORDER TO REASSIGN CASE TO A
DISTRICT JUDGE; REPORT AND
RECOMMENDATION TO DIMISS
COMPLAINT
Re: ECF No. 1

16

T3 E

_c
= t;
2

D o

17

INTRODUCTION

18

The plaintiff Astarte Davis, who represents herself in this action and who is proceeding in

19 II forma pauperis, sued Marin County Superior Court judges Joseph Wilson and Stephen P. Freccero
20 || and California Court of Appeal Justice Mark B. Simons, claiming that in proceedings relating to
21

her marital dissolution in 1969, they deprived her of property and denied her due process, in

22

violation of 42 U.S.C. § 1983.1 Before directing the United States Marshal to serve the defendant

23

with the plaintiff s complaint, the court must screen it for minimal legal viability. 28 U.S.C. §

24
25
26
1

27
28

J2ompl. - ECF No. 1; Order - ECF No. 5. Citations refer to material in the Electronic Case File
(“ECF”); pinpoint citations are to the ECF-generated page numbers at the top of documents.
According to the complaint, Judge Wilson is no longer alive. Compl. - ECF No. 1 at 4 6).
ORDER; REPORT AND RECOMMENDATION - No. 20-CV-02657-LB

Case 3:20-cv-02657-LB Document 9 Filed 05/15/20 Page 2 of 6

1

1915(e)(2)(B). The complaint is frivolous because — among other reasons — the judges have

2 II absolute immunity. Ms. Davis declined magistrate jurisdiction.2
3

In an earlier lawsuit in this district, Ms. Davis raised similar claims against her former

4 || husband, his business, and his wife about property taken from Ms. Davis in her 1969 annulment
5

proceeding. Judge Seeborg dismissed the case with prejudice on the grounds that the claims were

6
barred by the statute of limitations and the Rooker—Feldman doctrine. Davis v. Davis, No. 18-cv7 II 00094-RS, Order - ECF No. 78.
8

Because Ms. Davis has not consented to magistrate-judge jurisdiction, this case must be

9 || reassigned. The undersigned refers this case first to Judge Seeborg for a determination about

CQ

t: *5
3 k

•9 <8
o
IS
U
•=
0o
O
Q o
CO

<L>

•c

to

|a

10

whether the case, should be related to case number 18-CV-00094-RS. If Judge Seeborg determines

11

that the cases are not related, the undersigned directs the clerk of court to reassign this case to a

12

randomly selected district judge. In either event, the undersigned recommends that the newly

13

assigned judge dismiss the case with prejudice.

14
15

i«

STATEMENT
Ms. Davis filed a 132-page complaint and a 538-page compendium (in the form of a request

■o H
U

<L)

.ts -c
c t:
P O

Z

17 || for judicial notice) of her state-court filings.3 Construing her complaint liberally, she alleges the
18
19

following.
Judge Wilson presided over Ms. Davis’s “annulment/divorce” case filed in 1969 in Marin

20 II County Superior Court in Case No. 53979.4 He acted “in a quasi-criminal conspiracy” with Ms.
21

Davis s ex-spouse’s family and attorney “to take and keep Astarte’s real and personal properties

22
23
24
25

2 Declination - ECF No. 8.

26
27

noS"Pf^ECMN°- 1; *?q“est for Jjudicial Notice (“RJN”) - ECF No- 2. The court takes judicial
689(9thfCir 200j>reCOrds (but "0t dlSputed facts in them>- Lee v- City of Los Angeles, 250 F.3d 668,

28

C°mPl-

ECF No. 1 at 15 (f 69); Marin Case No. 53979 Compl., Ex. 11 to RJN

ORDER; REPORT AND RECOMMENDATION - No. 20-cv-02657-LB

-ECFNo. 2 at 48.

2

Case 3:20-cv-02657-LB Document 9 Filed 05/15/20 Page 3 of 6

1

by the intentional denial of her protected right of due process to be heard, which causefd] her harm

2

and tangible damages in the further loss of her properties and lifestyle, and untold more.”5

3

«
t:
c
3 <o <o
o ~
73
U
•E
tS o
5 ta
’C
B ts

In 2018, Ms. Davis sued her former spouse (Loyal Davis), his “companion” Dawn Joan Davis,

4

Mr. Davis s mother Betty Davis, and Mr. Davis’s attorney Stephen Kaufmann, claiming that they

5

fraudulently concealed assets during the 1969 annulment proceedings.6 Judge Freccero was the

6

presiding judge.7 On June 27, 2019, he sustained the defendants’ demurrer without leave to amend

7

and entered judgment against Ms. Davis.8 “Judge Freccero failed his duty when he did

8

intentionally ignored and suppressed] relevant evidence of the denial of Astarte’s rights at trial

9

case 53979; thereby Judge Freccero denied Astarte Fourteenth Amendment rights.”9 Judge

10

Frecerro acted “with malice and oppression” in sustaining the defendants’ demurrer and denied

11

her “protected U.S. Constitution Fifth and Fourteenth Amendments due process rights to be heard

12

at the hearing.”10 The state-court record shows that Ms. Davis has been declared a vexatious

13

litigant.11

14

Ms. Davis appealed Judge Freccero’s decision.12 On October 3, 2019, Justice Simons

15

dismissed Ms. Davis’s appeal on the grounds that (1) Ms. Davis was declared a vexatious litigant

3 Q
C/0 M
T3 £

16

in 2007 and violated the prefiling requirements of Cal. Code Civ. P. § 391.7, (2) the appeal lacked

M J
e e
D o
Z

17

merit and was filed “for the purposes of harassment or delay,” and (3) even if the vexatious-

18

litigant statutes did not apply, the appeal was frivolous.13 In her complaint, Ms. Davis claims that

19
20
5 Compl. - ECF No. 1 at 7 (f 21), 12 Of 48), 15 (ff 69, 71).
21
22

6 Id. at 7 Of 21-22); Marin Case No. 1802890 Register of Actions, Ex. 24 to RJN - ECF No. 2 at 154;
see also Marin Case No. 1802890 Third Am. Compl., Ex. 29 to RJN - ECF No. 2 at 211-212 (ff 1118); Marin Case No. 1802890 Judgment, Ex. 30 to RJN - ECF No. 2 at 259-260.

23

7 Compl. - ECF No. 1 at 7 (f 22).

24
25

g

Marin Case No. 1802890 Judgment, Ex. 30 to RJN - ECF No. 2 at 256-263.
9 Compl. - ECF No. 1 at 7 (f 24).
10 Id. at 8 (ff 25-26).

26

11 Marin Case No. 1802890 Register of Actions, Ex. 24 to RJN - ECF No. 2 at 157.

27

12 Compl. - ECF No. 1 at 8 (ff 28-29).
lj Id. (f 29); Dismissal of Appeal, Case No. A157795, Ex. 32 to RJN - ECF No. 2 at 301.

28
ORDER; REPORT AND RECOMMENDATION - No. 20-CV-02657-LB

3

Case 3:20-cv-02657-LB Document 9 Filed 05/15/20 Page 4 of 6

1

this act was an abuse of discretion.14 The judges collectively “ “join[ed] the quasi-criminal

2

conspiracy .. . [to] deprive Astarte of her properties and her federal Constitutional Rights. »15

3

In an earlier lawsuit in this district, where Ms. Davis raised substantially similar claims against

4

her former husband, his business, and his wife Dawn Davis about property taken from her in her

5

annulment proceeding, Judge Seeborg dismissed the case with prejudice on the grounds that the

6

claims were barred by the statute of limitations and the Rooker-Feldman doctrine. Davis v. Davis,

7

No. 18-cv-00094-RS, Order - ECF No. 78.

8
9
10
11
«

t; c

ANALYSIS
1. Sua Sponte Screening - 28 U.S.C. § 1915(e)(2)
A complaint filed by any person proceeding in forma pauperis under 28 U.S.C. § 1915(a) is

12

subject to a mandatory and sua sponte review and dismissal by the court to the extent that it is

13

frivolous, malicious, fails to state a claim upon which relief may be granted, or seeks monetary

14

relief from a defendant who is immune from such relief. 28 U.S.C. § 1915(e)(2)(B); Calhoun v.

15

Stahl, 254 F.3d 845, 845 (9th Cir. 2001); Lopez v. Smith, 203 F.3d 1122, 1126-27 (9th Cir. 2000)

16

{en banc). Section 1915(e)(2) mandates that the court reviewing an in forma pauperis complaint

17

make and rule on its own motion to dismiss before directing the United States Marshals to serve

18

the complaint under Federal Rule of Civil Procedure 4(c)(2). Lopez, 203 F.3d at 1127. The Ninth

19

Circuit has noted that ‘[t]he language of § 1915(e)(2)(B)(ii) parallels the language of Federal Rule

20

of Civil Procedure 12(b)(6).” Barren v. Harrington, 152 F.3d 1193, 1194 (9th Cir. 1998). As the

21

Supreme Court has explained, “[the in forma pauperis statute] is designed largely to discourage

22

the filing of, and waste of judicial and private resources upon, baseless lawsuits that paying

23

litigants generally do not initiate because of the costs of bringing suit.” Neitzke v. Williams, 490

24

U.S. 319, 327 (1989).

3

« 73

■g £

$5 ‘S
Q.«
Vi
•—
£ tS
■2 5
C/3
T3 S

g J=
c •£
D o
Z

25
26
27
28

14 Compl. - ECF No. 1 at 8 fl[ 30).
15 Id at 13 (| 56).
ORDER; REPORT AND RECOMMENDATION - No. 20-cv-02657-LB

4

k

Case 3;20-cv-02657-LB Document 9 Filed 05/15/20 Page 5 of 6

1

Under Rule 12(b)(6) and 28 U.S.C. § 1915(e)(2)(B), a district court must dismiss a complaint

2 II if it fails to state a claim upon which relief can be granted. Rule 8(a)(2) requires that a complaint
3

include a “short and plain statement” showing the plaintiff is entitled to relief. “To survive a

4

motion to dismiss, a complaint must contain sufficient factual matter, accepted as true, to state a

5

claim to relief that is plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (internal

6

quotation marks omitted); see BellAtl. Corp. v. Twombly, 550 U.S. 544, 570 (2007). The

7 || complaint need not contain “detailed factual allegations,” but the plaintiff must “provide the
8

grounds of his entitlement to relief,” which “requires more than labels and conclusions ; a mere

9 II “formulaic recitation of the elements of a cause of action” is insufficient. Twombly, 550 U.S. at
10
11
cd

3 I
-9 <S

555 (internal quotation marks and brackets omitted).
In determining whether to dismiss a complaint under Rule 12(b)(6), the court is ordinarily

12 || limited to the face of the complaint. Van Buskirk v. Cable News Network, Inc., 284 F.3d 977, 980
13

(9th Cir. 2002). Factual allegations in the complaint must be taken as true and reasonable

^

14

inferences drawn from them must be construed in favor of the plaintiff. Cahill v. Liberty Mut. Ins.

Q t3

15

Co., 80 F.3d 336, 337-38 (9th Cir. 1996). The court cannot assume, however, that “the [plaintiff]

11

16

can prove facts that [he or she] has not alleged.” Assoc. Gen. Contractors of Cal, Inc. v. Cal. State

17

Council of Carpenters, 459 U.S. 519, 526 (1983). “Nor is the court required to accept as true

18

allegations that are merely conclusory, unwarranted deductions of fact, or unreasonable

-g 73

cn 'C

GO ®
T3 £
1) 1)
-C

= 1C

19 || inferences.” Sprewell v. Golden State Warriors, 266 F.3d 979, 988 (9th Cir. 2001).

20

“A pro se complaint must be ‘liberally construed,’ since ‘a pro se complaint, however

21 || inartfully pleaded, must be held to less stringent standards than formal pleadings drafted by
22

lawyers.’” Entler v. Gregoire, 872 F.3d 1031, 1038 (9th Cir. 2017) (quoting Erickson v. Pardus,

23 II 551 U.S. 89,94(2007)).
24

When dismissing a case for failure to state a claim, the Ninth Circuit has “repeatedly held that

25 || a district court should grant leave to amend even if no request to amend the pleading was made,
26

unless it determines that the pleading could not possibly be cured by the allegation of other facts.”

27

Lopez, 203 F.3d at 1130 (internal quotations omitted).

28
ORDER; REPORT AND RECOMMENDATION - No. 20-cv-02657-LB

5

'

Case 3:20-cv-02657-LB Document 9 Filed 05/15/20 Page 6 of 6

1

2. The Complaint Fails to State a Claim

2

Ms. Davis’s complaint fails because, among other reasons, it is barred by judicial immunity

3

First, the judges have absolute judicial immunity for their judicial acts. Swift v. California, 384

4 || F.3d 1184, 1188 (9th Cir. 2004) (citing Pierson v. Ray, 386 U.S. 547, 553-54 (1967)).
5

Second, as the district court held in the earlier case, any claims are barred by the Rooker-

6 || Feldman doctrine and (as to the property issues) by the statute of limitations. Davis v. Davis, No.
7

18-cv-00094-RS, Order - ECF No. 78. Cases involving domestic relations generally do not belong

8

in federal court (although the court does not reach that issue). See Ankenbrandt v. Richards, 504

9 II U.S. 689, 693-95 (1992).
10

CONCLUSION

11
«

The case will be reassigned to a district judge. The recommendation is for dismissal of the case
with prejudice.

12

l£

ai 13
*4^

Any party may serve and file specific written objections to this recommendation within 14
II

I *8

14 II dayS aftCr being S£rVed Whh 3 C°Py' See 28 U-S'C- § 636(b)(l)(C); Fed. R. Civ. P. 72(b)(2); N.D.

Q
*
vi 'C
B tS

15

Cal. L.R. 72-3. Failure to file written objections within the specified time may waive the right to

16

appeal the district court’s order.

I5
-a £
c t:
P o
Z

17
18

IT IS SO ORDERED.

19

Dated: May 14, 2020

20
21

LAUREL BEELER
United States Magistrate Judge

22
23
24
25
26
27
28
ORDER; REPORT AND RECOMMENDATION - No. 20-cv-02657-LB

6

APPENDIX B-3

Objections to Report and Recommendations

6

ORIGINAL FILED
1
2
3
4
5

Astarte Davis
PO Box 306
Gualala, CA 95445
707-785-2972
astartedavis@hotmail.com
In Pro Se

MAY 2 6 2020
SUSAN Y. SOONG
CifRK’ u-s- DISTRICT court
NORTH DISTRICT OF CALIFORNIA

6

UNITED STATES DISTRICT COURT

7

FOR THE

8
9

NORTHER DISTRICT OF CALIFORNIA

10

n

SAN FRANCISCO DIVISION

12
13
14

ASTARTE DAVIS,
Plaintiff,

15
16

V.

17
18

Civil Case No.: 20-cv-02657-RS

JOSEPH WILSON, ET AL.,
Defendants

19

PLAINTIFF’S OBJECTIONS TO
MAGISTRATE JUDGE LAUREL
BEELER’S REPORT AND
RECOMMENDATION TO DISMISS
COMPLAINT - due 5/29/2020

20
21
22

INTRODUCTION

23

Plaintiffs OBJECTIONS made pursuant to 28 U.S.C. § 636(b)(1) in support of her case;

24

to Magistrate Judge Laurel Beeler's report of her recommendation to dismiss Plaintiffs

25

Complaint.

26

Plaintiffs herein gives this Court reasons why her case should not be dismissed, the

27

Complaint is about void cases due to denial of due process rights and a continuing injustice;

28

1
PLAINTIFF'S OBJECTIONS TO MAGISTRATE JUDGE LAUREL BEELER’S
REPORT AND RECOMMENDATION TO DISMISS COMPLAINT

1

pursuant to the U.S. Constitution, California Constitution, and the Supreme Law of the Land.

2

This new material evidence which is relevant to this case and these defendants were not
presented to this Court in case 18-CV-00094-RS.

4
5
6

Plaintiff does not find in the U.S. Magistrate Judge Beeler's report where she was ordered
by the Court pursuant to 28 U.S. Code § 636 to made any recommendations concerning
Plaintiffs Complaint.
A party who objects to this report is entitled to a de novo determination by the United States

7
8

District Judge of the proposed findings and recommendations to which a specific objection is timely
made. 28 U.S.C. § 636(b)(1)(c); Fed R. Civ. P. 72(b)(3).

9
10
11
12
13
14

JUDGE BEELER'S REPORT STATEMENT
Magistrate Judge Beeler states in her Report that case 18-cv-00094-RS was dismissed
"with prejudice" on the grounds that the claims were barred by the statute of limitations.
Plaintiff on referring back to the Order Granting Motion to Dismiss Case No. 1.8-cv00094-RV Plaintiff will quote from the Order of the Court filed 7/27/2018. "Dismissal is
appropriate under Federal Rule of Civil Procedure 12(b)(1) when the district court lacks subject

15
matter jurisdiction over the claim." The court went on to say; this case should be taken back to
16
17
18

the court of original jurisdiction; which Plaintiff did.
The Order does not state "with prejudice" as stated in Judge Beeler Report. A court
cannot state "with prejudice" if it lacks jurisdiction to hear the case.

19

This Court now has "subject matter jurisdiction," as Plaintiff now has new material

20

evidence relevant to the case as to denial of federal constitutional rights by the Defendants in this

21

Complaint; which will require this matter to go foreword to trial.

22
23

Any reasonable person reading the herein case would consider a conspiracy between
private parties and the judge; and that is what Plaintiff give to the court in case 18-cv-00094-RS.
Plaintiffs herein Complaint is against new defendants; and the claims arise in a “new

24
context." Defendants, Judge Joseph Wilson [now deceased; survives pursuant to Survival Action
25

CCP §377.30]; Judge Stephen Freccero and Justice Mark Simons. This is the ORIGINAL and only

26

case with these defendants; with new material evidence relevant to the case of denial of federal

27

constitutional rights pursuant to 42 U.S. § 1983.

28

2
PLAINTIFF'S OBJECTIONS TO MAGISTRATE JUDGE LAUREL BEELER'S
REPORT AND RECOMMENDATION TO DISMISS COMPLAINT

1
2

REASONS WHY PLAINTIFF’S COMPLANT SHOULD NOT BE DISMISSED WITH
PREJUDICE
The Compliant is multifaceted with three void cases; with denial of the right to be heard at
trial/hearing and offer evidence in support of Plaintiffs case

4

JUDGE WILSON - CASE 5-35979 - HISTORY OF and FOR THE CASE

5
6
7

New material evidence relevant to case 35979 are the Marin Superior Court pages of the trial
minutes showing denial of due process by Judge Wilson, thereby Plaintiffs loss her properties.
Four months after filing case 53979 the court took the divorce case off calendar; before

8

any decision on issues, and without notice or hearing on October 14, 1969 [Court Pg 235]

9

[EXHIBIT 13 in the Complaint], Which is contrary to law.

10

Judge Wilson, personally and in his capacity as Judge, Superior Court, Marin County,

11

State of California; under color of law then granted a parcel Order for dissolution of marriage

12

without notice and without a hearing to Astarte, in favor of the Respondent. On February 27,

13
14

1970 [Court Pg 236-237 EXHIBIT 14 in the Complaint]. Thereby denial of Astarte's Due
Process.
The records show that no evidence concerning the other man that Astarte was supposedly

15
16

married to; nor was any given concerning "the other man," by Loyal Davis, who was making the
claim. The "other man;" Loyal was referring to is/was "Louis Allabaugh" [EXHIBIT 12 in the

17

Complaint] of Tiburon, CA. Who was the "other man," Astarte had been living with during

18

1956; they parted company, and she move to Mill Valley. Louis Allabaugh was married to

19

Emma Lauretta Krumenacker in New Jersey on August 6, 1944. Louis Allabaugh died on

20

February 21, 1974 still married to Emma Lauretta. Louis Allabaugh was not free, never was, nor

21

would he ever be, to have married Astarte. That is why Astarte moved to Mill Valley; where she

22
23

met and married Loyal Davis.
This action caused loss of jurisdiction of the case by Judge Wilson. Thus, the required
elements of due process are those that “minimize substantively unfair or mistaken deprivations"

24

by enabling persons to contest the basis upon which a state proposes to deprive them of protected
25

interests. Fuentes v. Shevin, 407 U.S. 67, 81 (1972).

26
27
28

PLAINTIFFS OBJECTIONS TO MAGISTRATE JUDGE LAUREL BEELER'S
REPORT AND RECOMMENDATION TO DISMISS COMPLAINT

1
2

JUDGE FRECCERO - CASE CIV-1802890
■

All the above new material evidence relevant to the case was in Plaintiffs opposition to a
demurrer before Judge Freccero, in case CIV-1802890. At the demurrer hearing of June 25.

4

5
6

2019 Plaintiff did CONTEST the ruling of the court; based on the fact Judge Freccero did
intentionally turn a blind eye in not addressing her opposition. Thereby did fail to do his duty
under law. The opposition did have the attach exhibits of the TRIAL MINUTES in which
Plaintiff was denied her rights to be heard; and to present evidence at trial in the real property

7

matters in Case 53979 at issue in Case 1802890.

8

Court Reporters Transcript of 5/25/2019 [Exhibit 26 to the Complaint] states: Ms. Davis:

9

"I'm just here today, your honor, to contest the decision. ..." And "I notice that, in youi

10

decision, your Honor, you didn't address my opposition as to the due process violation by Judge .

11

. . "

12

OR listen to her questions. One of his many comments was "how do I know what happen then."

13

Judge Freccero had many things to say that might be of interest to this Court. Judge Wilson's in

14

the trial minutes was very concise in his meaning, there was no misunderstand of what was said

15

At that time Judge Freccero did cut Plaintiff off in mid sentence and refusing to address

and done at trial in case 53979.
Plaintiff was disturbed as she thought that was why she was in court; for answers.

16

Judge Freccero dismiss Plaintiffs case; thereby denial of due process to be heard on new
17

evidence. Causing loss of jurisdiction; thereby VOID case.

18

The filed June 27, 2019 Judgments of Case CIV-1802890 is void due to denial/violation

19

of Plaintiffs federal constitutional protected Fourteenth Amendment due process rights to be

20

heard at trial by Judge Wilson. Judge Freccero's court did not have jurisdiction over a void case

21

53979; which is unenforceable under law. Judge Freccero only had a duty to annul the case, and

22

return Plaintiffs stolen property, which he intentionally ignored.

23
24
25

JUSTICE SIMONS - CASE A157795
New material evidence relevant to the case as to Justice Simons, case A157795.
The records will show Justice Simons did fail to do his duty under law, when he did not address

26

the denial of Plaintiffs due process rights in case CIV-1802890, nor did he address the facts tha!

27
28

4

PLAINTIFF'S OBJECTIONS TO MAGISTRATE JUDGE LAUREL BEELER'S
REPORT AND RECOMMENDATION TO DISMISS COMPLAINT

1

Judge Freccero's judgment was void as it was based on void case 53979; thereby Judge Simons

2

ordered dismissal of Plaintiffs appeal as frivolous, was abuse of discretion and contrary to law.
and denial of due process; thereby loss ofjurisdiction.

4
5
6

Before Plaintiffs opening brief was file on appeal; the defendants in that case
filed a motion for dismissal; an opposition [EXHIBIT 31 in the Complaint] was file. Justice
Simons had a duty under law to read Plaintiffs pro se opposition to defendants motion to
dismiss; and to address the denial of due process in Plaintiffs opposition; a duty he failed to do.

7
8

Justice Simons states in his order of dismissal

. even if the vexatious litigant statutes does not

apply, this court would exercise its inherent power to dismiss the instant appeal as frivolous."

9

Plaintiff is not a vexatious litigant she is not on the California vexatious litigant list and

10

never has been; which is mandatory to be called a vexatious litigant by the rules of the Judicial

11

Council of California.

12
13
14
15

Justice Simons said Plaintiffs case was frivolous in his order, did not know a denial of
due process, a constitutional right would or could be called frivolous.
Plaintiff did file a request/application to file new litigation in Justice Simons case, which
he chose to ignore; even though it was not required.
Plaintiff has NEVER filed a case for the purposes of harassment or delay.

16
17
18

Plaintiff believes that Judge Freccero and Justice Simons would not challenge a fellow
judge; no matter who they harm or for what reason. In Plaintiff thinking they joined the wrongs
that Judge Wilson did for what ever his reason.

19

Justice Simons actions are not based upon consideration of relevant factors in the case

20

before him; it is arbitrary and capricious; an abuse of discretion; exclusion/suppression of

21

Judicially Notice material evidence relevant to the case which speaks for itself; causing

22

denial/violation of due process. Thereby irreparable harm to Plaintiff. In view of the facts that

23
24

Judge Freccero's actions did change the outcome of the case; and continued the injustice of case
53979; and Justice Simons knowingly and willfully failed his duty to rule under law for those
wrongful actions/conduct; and at issue in Judge Simons case A157795.

25
26
27
28

5
PLAINTIFF'S OBJECTIONS TO MAGISTRATE JUDGE LAUREL BEELER'S
REPORT AND RECOMMENDATION TO DISMISS COMPLAINT

1

Justice Simon without reading Plaintiff opposition would not have known Judge Freccero

2

case was VOID; as it was based on case 53979 a VOID case; thereby Justice Simons order oi
dismissal is VOID.

4
5

6
7

None of the above new material evidence of denial of due process by judges; who are
now the defendants herein was presented in case 18-cv-00094-RS as the above cases [CIV1802890 and CASE A157795] was decided after that case; and now is before this Court.

FAILED DUTY TO PERFORM

8

Judge Freccero and Justice Simons should not dismiss a complaint drafted by a self-

9

represented litigant unless it appears beyond doubt that the plaintiff cannot prove any set of facts

10

that will support a claim that would entitle the plaintiff to relief. Hughes v. Rowe, 449 U.S. 5, 9-

11

10 (1980); Conley v. Gibson, 355 U.S. 41, 45-46 (1957). Plaintiff had/has sufficiency of claims

12

in her filed briefs and documents should any further information be needed; it is call Relation-

13

back Doctrine; that would entitle her to relief; which they intentionally ignored.

14
15

The duty of Judge Freccero and Justice Simons is to read and liberally construe a selfrepresented litigant’s pleadings includes a duty to consider allegations found in other documents
filed by the litigant, which also means the defendants' wrongdoings. Estelle v. Gamble, 429 U.S.

16
17

97, 106 (1976); Howard v. King, 707 F.2d 215, 220 (5th Circuit 1983); Moore v. Florida, 703
F.2d 516, 521 (11th Circuit 1983); Woodall v. Foti, 648 F.2d 268, 272 (5th Circuit 1981):

18

Wright v. El Paso County Jail, 642 F.2d 134, 135 (5th Circuit 1981); Matzker v. Herr, 748 F.2d

19

1142, 1148 n.5 (7th Circuit 1984). Judge Freccero did not address any wrongdoing from case

20

53979; Justice Simons did not address any wrongdoing from case CIV-1802890. Therefore.

21

Orders/Judgments because of that failure, of that duty are contrary to law, and void. Thereby all

22

three cases should be annul and Plaintiffs properties returned.

23
24

25
26

ABSOLUTE IMMUNITY
Pursuant to 4.7.2 Section 1983 Conduct Not Covered by Absolute Immunity. Plaintiff
alleges that the Defendants describe behavior/actions is not covered by absolute immunity.

27
28

6
PLAINTIFFS OBJECTIONS TO MAGISTRATE JUDGE LAUREL BEELER'S
REPORT AND RECOMMENDATION TO DISMISS COMPLAINT

1

The doctrine of qualified immunity shields governmental officials "from liability for civil

2

damages insofar as their actions does not violate clearly established statutory or constitutional
rights." Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982).
For qualified immunity purposes, "clearly established" means that "the contours of the

4
5

6

right must be sufficiently clear that a reasonable official would understand that what he is doing
violates that right." Anderson v. Creighton, 483 U.S. 635, 640 (1987). Justice Simons with
deliberate indifference did knowingly deny Plaintiffs constitutional rights to a fair hearing on her

7
8

appeal.
Judge Freccero and Justice Simons with intentional acts of malice and oppression which

9

did cause harm to Plaintiff by the continuing of the injustice of Judge Wilson's Marin case No.

10

53979; which lack subject matter jurisdiction by denying rights under the protected U.S.

11

Constitution and Fifth and Fourteenth Amendments, and the Supreme Law of land; thereby a

12

void case. It is fundamental that any law contrary to the U.S. Constitution is null and void:

13

thereby all orders and judgments are void, and all that followed Marin case No. 53979 are void;

14
15

such as Marin case CIV-1802890 and Court of Appeal case A157795. Thereby this Court needs
to annul all orders and judgment for all three cases, and return all that belongs to Plaintiff; that
would be sufficient for Plaintiff in this case.

16

The Supreme Court recently observed that "qualified immunity balances two
17
18
19
20

important interests; the need to hold public officials accountable when they exercise
power irresponsibly . . . ." Pearson v. Callahan, 129 S. Ct. 808, 815 (2009); California, 370
U.S. 660, 667 (1962). Thereby holding Judge Wilson, Judge Freccero and Justice Simons
accountable for their wrongful actions to continue the harm and tangible damage to Plaintiff.

21
22

Orders, Judgments Exceeding Jurisdiction in all three courts

23

An order that exceeds the jurisdiction of the court is void, and can be attacked in any
proceeding in any court where the validity of the judgment comes into issue. (See Rose v.
Himely (1808) 4 Crunch 241, 2 L ed 608; Pennoyer v. We# (1877) 95 US 714, 24 L ed 565;
Thompson v. Whitman (1873) 18 Wall 457, 21 1 ED 897; Windsor v. McVeigh (1876) 93 US
274, 23 L ed 914; McDonald v. Mabee (1917) 243 US 90, 37 Set 343, 61 L ed 608.

24

25
26
27
28

7

PLAINTIFF'S OBJECTIONS TO MAGISTRATE JUDGE LAUREL BEELER'S
REPORT AND RECOMMENDATION TO DISMISS COMPLAINT

1
2

4

5
6
7
8
9

10

Plaintiff was denied her Right to Be Heard in the above three courts
A judgment of a court without hearing the party or giving her an opportunity to be heard
is not a judicial determination of her rights. Sabariego v. Maverick, 124 US 261, 31 L Ed 430, 8
S Ct 461, and is not entitled to respect in any other tribunal. "A void judgment does not create
any binding obligation. Federal decisions addressing void state court judgments include Kalb v.
Feuerstein (1940) 308 US 433, 60 S Ct 343, 84 L ed 370; Ex parte Rowland (1882) 104 U.S.
604, 26 L.Ed. 861: "A judgment which is void upon its face, and which requires only an
inspection of the judgment roll to demonstrate its wants of vitality is a dead limb upon the
judicial tree, which should be lopped off, if the power to do so exists." People v. Greene, 71 Cal.
100 [16 Pac. 197, 5 Am. St. Rep. 448]. "If a court grants relief, which under the circumstances it
hasn't any authority to grant, its judgment is to that extent void." (1 Freeman on Judgments,
120c.) An illegal order or judgment is forever void and unenforceable. Ornelas v. United States.
517 U.S. 690 (1996).
While Judge Wilson, Judge Freccero and Justice Simons was performing judicia

11

function they

12

constitutional Fifth and Fourteenth Amendment rights of due process; and her Civil Rights; oi

13

her California Primary Rights, are absolutely not a judicial function and conflicts with definition

14
15

may

enjoy immunity. However denial of Plaintiffs protected federal

of a judicial function.
Judge Wilson, Judge Freccero and Justice Simons actions were acts contrary to law and
in excess of judicial authority constitutes abuse of discretion, particularly where a judge

16
17

deliberately disregards the requirements of fairness, due process; and their duty. They
intentionally ignored those duties to address Plaintiffs pleadings with willful blindness as an

18

Officers of the Court. Cannon v. Commission on Judicial Qualifications, (1975) 14 Cal. 3c

19

678, 694; Gonzalez v. Commission on Judicial Performance, (1983) 33 Cal. 3d 359, 371, 374;

20

Estelle v. Gamble, 429 U.S. 97, 106 (1976); Phillips v. Girdich, 408 F.3d 124, 129-30 (2nc

21

Circuit 2005).

22

The Defendants' actions with others was the substantial factor in causing Plaintiff serious

23

larm by the misuse of the power of the court. "It was known abuse and misuse of the power of

24

the court; it is an act done in the name of the court and under its authority for the purpose of
perpetrating an injustice.’ [Citation.]’ ” (SA. v. Maiden (2014) 229 Cal.App.4th 27, 41 [176

25

Cal.Rptr.3d 567]; Adams v. Superior Court (1992) 2 Cal.App.4th 521, 530 [3 Cal.Rptr.2d 49],
26

And it did.

27
28

8

PLAINTIFF'S OBJECTIONS TO MAGISTRATE JUDGE LAUREL BEELER'S
REPORT AND RECOMMENDATION TO DISMISS COMPLAINT

l

Plaintiff has establish sufficiency in her claims for relief; for abuse of process, void

2

cases, and more; for this Court to hear her Complaint. Coleman v. GulfInsurance Group (1986)
41 Cal.3d 782, 792 [226 Cal.Rptr. 90, 718 P.2d 77], Trear v. Sills (1999) 69 Cal.App.4th 1341,

4

5

1359 [82 Cal.Rptr.2d 281],
Dawn Joan Davis [aka Joan Maher] [unrelated to herein Davis family] is now knowingly
in sole procession of all the stolen and concealed real properties, personal properties, fixtures;

6
7
8

and all the rental income thereof belonging to Plaintiff and her sons/heirs; due to the void cases;
orders and judgments; and all that followed each and every case #53979, #CIV-1802890 and
#A157795.

9

Properties at issue due to unresolved void cases: (1) 460 Cascade Drive, 3-units, Mill

10

Valley; (2) 316 Miller Avenue [and house behind], 10-units, Mill Valley; (3) 7

11

Homestead Boulevard, 3-units, Mill Valley; (4) 4079 Paradise Drive, 2-units, Tiburon

12

[the Davis home since 1962 ]; (5) 1024 Redwood Boulevard, 8-units, Mill Valley; (6) 80

13

Lincoln Avenue, condo complex, Sausalito; and rental income thereof.

14

Concealed property known as: 7] 228 Marion Ave, Mill Valley; 8] Tam Valley Lots
A,B,C and D, Subdivision One, Tamalpais Valley 9] Hazel Ave. Lot, Mill Valley; 10] 150

15

Hazel Ave., Mill Valley; 357 Pine Hill, Mill Valley; 11]; and rental income thereof.
16

DENIAL OF DUE PROCESS
Excepts From the Complaint

17
18

145. Fraudulent Grant Deed to Betty Davis [Loyal's mother]
19
20

21

was created by the

defendants and executed on 6/24/1969 and recorded 6/27/1969 [EXHIBIT 15]; in known direct
violation of a Restraining Order of the Marin Superior Court filed 6/17/1969 [EXHIBIT 16].
153.

Property Trial Minutes - Judge Joseph Wilson Presiding [EXHIBIT 17] - Court

22

pages #123, 124, 125, 126, 127, 128, 129]: First Day Trial 4/2/1975 [Trial Minutes Court Pg

23

123] Astarte's attorney Madeline McLaughlin put into evidence Astarte and Loyal's Marriage

24

Certificate, admitted at 1:42 pm, and their Agreement concerning Loyal and Astarte's assets ol

25
26

their marriage, admitted at 3:02 pm.
154.

The Betty Davis Grant Deed concerning the real properties at issue was entered

into evidence by Attorney Kaufmann on the Second Day of Trial on 4/3/1975 [Trial Minutes,
27
28

9
PLAINTIFF'S OBJECTIONS TO MAGISTRATE JUDGE LAUREL BEELER’S
REPORT AND RECOMMENDATION TO DISMISS COMPLAINT

1

Court Pg 124-125]; first time the grant deed appeared in Case 53979, and is extrinsic/collateral

2

fraud with deceit which is criminal conversion grant thief.
155.

4
5

6

In the Trial of the properties matter Case 53979 Judge Wilson statement was

"concise" in its meaning on the Third Day of Trial rpropertvl 4/4/1975. Trial Minutes. Court
Pg 126 stated: "This matter coming on regular continuance, parties present, respondent moves to
exclude any further testimony on real property, court shall grant MOTION to exclude further
evidence, which includes property' that involves Betty Davis, as of this date".

7
8

156.

The above MOTION was not offered or found in the case file. Attorney

Kaufinann did present the 1969 Grant Deed on 4/3/1969 with a list of properties in evidence.

9

NONE of which was presented to Astarte Davis for examination nor was she cross oi

10

direct examined concerning these documents or any documents concerning T.pyal and Astarte's

11

real property or otherwise at trial; as the trial minutes shows.

12

157.

Thereby the court intentionally took Astarte's ability to challenge any deeds/any

13

documents as to their authenticity at trial, or otherwise. Astarte's constitutionally protected due

14

process rights to be heard at trial was intentionally taken away by fraud, by Judge Wilson acting

15

under color of law, and in his capacity as a judge in the Marin County Superior Court, and as a
private individual in a quasi-criminal conspiracy with the Defendants under color of law, while

16
17

in their capacity as private individuals.
158.

Judge Wilson statement was "concise" in its meaning on the Sixth Day of Trial

18

[property] 4/8/1975 [~ Trial Minutes. Court Pg 1281. after Astarte was DENIED her protected

19

rights pursuant to the U. S. Constitution and Fourteenth Amendment TO BE HEARD OR

20

PRESENT EVINDENCE at trial, on 4/3/1975 fshown above] concerning all real, and persona

21

properties.

22
23
24

The above is some of the IGNORED/SUPPRESSED/EXCLUDED material
evidence relevant to the case by Judge Freccero

[from Case 53979 before him]. The Trial

Minutes shows the clear, concise statements by Judge Wilson [See EXHIBIT 17] which
denied Plaintiffs due process rights to be heard in all property matters; The Betty Davis Grant

25

Deed [See EXHIBIT 15] from Case 53979 before him: that fraudulent deed took Astarte's
26

property against a Restraining Order [See EXHIBIT 16] which was criminal conversion grant

27

28

10
PLAINTIFF'S OBJECTIONS TO MAGISTRATE JUDGE LAUREL BEELER'S
REPORT AND RECOMMENDATION TO DISMISS COMPLAINT

l

thief. “Some form of hearing is required before an individual is finally deprived of a property

2

[or liberty] interest. Mathews v. Eldridge, 424 U.S. 319, 333 (1976). “Parties whose rights are to
be affected are entitled to be heard.” Baldwin v. Hale, 68 U.S. (1 Wall.) 223, 233 (1863). Ae

4

5

impartial decision maker is an essential right in civil proceedings as well Goldberg v. Kelly, 397
U.S. 254, 271 (1970). The language of the Fourteenth Amendment requires the provision of due
process when an interest in one’s “life, liberty or property” is threatened. Morrissey v. Brewer,

6

408 U.S. 471, 481 (1982). Plaintiff was denied a fair hearing at trial in case 53979.
7

Judges do not possess absolute immunity with respect to claims arising from “the

8

administrative, legislative, or executive functions that judges may on occasion be assigned by

9

law to perform.” Forrester v. White, 484 U.S. 219, 227 (1988).

10

"SCIENTER" which was/is the defendants' Judge Wilson; Judge Freccero, and Justice

11

Simons' state of mind and can be held accountable. Scienter denotes a level of intent on the pari

12

of the Defendants. In Ernst and Ernst v. Hochfelder, 425 U.S. 185, 96 S.Ct. 1376, 47 L. Ed. 2a

13
14

15
16
17

668 (1976), the Supreme Court described scienter as "a mental state embracing intent to
deceive, manipulate, or defraud." The definition in Ernst illustrates the sort of guilty knowledge
that constitutes scienter as shown herein.
PLANTIFF'S CLAIMS FOR RELIEF ARE NOT FRIVOLOUS OR MALICIOUS
THEY ARE SATISFIED PURSUANT TO FRCP RULE 8(a)(2)
FORMA PAUPERIS UNDER 28 U.S.A. § 1915(a) IS SATISFIED

18
19

Shown below are from Plaintiffs Complaint and followed in her claims.
Pursuant to #4.3 Section 1983: Elements of Claims: Astarte must prove both of the

20
21

following elements: First: Defendants acted under color of state law, which they undeniably and
knowingly and willfully did; and Second: While acting under color of state law, Defendants did

22

deprived Astarte of her federal constitutional rights and her statutory rights by depriving her of

23

her Fourteenth Amendment rights to due process of protected federal and state law, which they

24

undeniably and intentionally did.

25

Astarte must prove to establish the violation of her federal constitutional and statutory

26

rights. “By the plain terms of § 1983, two - and only two - allegations are required in order to

27
28

state a cause of action under that statute, and First: Astarte must allege that some person has
11
PLAINTIFF'S OBJECTIONS TO MAGISTRATE JUDGE LAUREL BEELER’S
REPORT AND RECOMMENDATION TO DISMISS COMPLAINT

1

deprived her of a federal right; and Second: she must allege that the person who has deprived her

2

of that right acted under color of state or territorial law.” Gomez v. Toledo, 446 U.S. 635, 640
(1980); (“A prima facie case under § 1983 requires a plaintiff to demonstrate: (1) a person

4

5
6

deprived her of a federal right; and (2) the person who deprived her of that right acted under
color of state or territorial law.”). Which she has done.
Pursuant to #4.4 Section 1983: Action under Color of State Law. The first element ol
Astarte's claim is that Defendants acted under color of state law and in a quasi-criminal

7
8

conspiracy. This means that Astarte must show that Defendants was using power that they
possessed by virtue of state law. Which she has done.

9

A person/judge can act under color of state law even if the act violates state law. The

10

question is whether the person/judge was clothed with the authority of the state, by which mean

11

using or misusing the authority of the state and denied due process to be heard. Yes, the

12

persons/judges/justice did have authority of the State of California, and did misuse it by denying

13

Plaintiffs protected rights of due process to be heard.

14
15

“Defendants' actions do satisfy the state-action requirement of the Fourteenth
Amendment which satisfies Section 1983’s requirement of action under color of state law.”
Lugar v. Edmondson Oil Co., 31 457 U.S. 922, 935 n.18 (1982). also Brentwood Acad. v.

16
17

Tennessee Secondary Sch. Athletic Ass’n, 531 U.S. 288, 295 n.2 (2001).
“Like the state-action requirement of the Fourteenth Amendment, the under-color-of-

18

state-law element of § 1983 excludes from its reach ‘“merely private action, no matter how

19

discriminatory or wrongful.”'” American Mfrs. Mut. Ins. Co. v. Sullivan, 526 U.S. 40, 50

20

(1999) (quoting Blum v. Yaretsky, 457 U.S. 991, 1002 (1982) (quoting Shelley v. Kraemer, 334

21

U.S. 1, 13 (1948))).

22
23
24

Liability under Section 1983 “attaches only to those wrongdoers ‘who carry a badge of
authority of a State and represent it in some capacity, whether they act in accordance with their
authority or misuse it.’” National Collegiate Athletic Ass'n v. Tarkanian, 488 U.S. 179, 191
(1988); (quoting Monroe v. Pape, 365 U.S. 167, 172 (1961)); West v. Atkins, 487 U.S. 42, 49

25
26

(1988); United 8 States v. Classic, 313 U.S. 299, 326 (1941)). Defendants did act under color of
law with the authority of the State of California court system.

27
28

12

PLAINTIFF’S OBJECTIONS TO MAGISTRATE JUDGE LAUREL BEELER'S
REPORT AND RECOMMENDATION TO DISMISS COMPLAINT

1

Plaintiff in her Complaint pursuant to FRCP Rule 8(a)(2) contains her statement of claim

2

showing that she is entitled to relief. There are detailed factual allegations with new material
evidence relevant to the case and considered sufficient factual matter excepted as true as they are

4

5

Judicially Notice [in case CIV-1802890] court case documents from case 53979. Bell Atl. Corp.
v. Twombly, 550 U.S. 544, at 570 (2007).
Plaintiffs claims do give rise to an entitlement for relief. Plaintiff requests right to

6

amend if needed.
7

Plaintiff did and is suffering distress because of the denial and the continuing denial of

8

her procedural due process rights by Defendants. Carey v. Piphus (1978) 435 U.S. 247, 263 [98

9

S.Ct. 1042][55 L.Ed.2d 252]. She has the right to procedural due process which is "absolute;" foi

10

a fair trial. When necessary to correct a clear error and to prevent manifest iniustice. Arizona v.

11

California, 460 U.S. 605 at 618 (1983). As shown in this case.

12
13
14

Where "Law of the case directs a court's discretion, it does not limit the tribunal's power."
Messinger v. Anderson, 225 U.S. 436, 444 (1987). The issues of: denial of constitutional rights
and the fraudulent history of the matters surrounding this case have NEVER been tried in any
court on it merits; only dismissed on technicalities .

15
16

CONCLUSION

17
18
19
20

For the foregoing reasons, Plaintiff respectfully objects to the Magistrate Judge’s Report
and Recommendation as it is contrary to law. The Motions to Dismiss should be denied, and
Plaintiff’s right to a fair trial should be granted.''

21
\

n

\! \
Vi

Dated: May 21, 2020
22

\

\

\

uf.il^ i\ \

\

Astute Davis, Plaintiff in pro se

23
24
25

26
27
28

13
PLAINTIFF'S OBJECTIONS TO MAGISTRATE JUDGE LAUREL BEELER'S
REPORT AND RECOMMENDATION TO DISMISS COMPLAINT

APPENDIX B-4

Order Adopting Report and Recommendation

7

Case 3:20-cv-02657-RS Document 14 Filed 05/29/20 Page 1 of 2

1
2

4
5
6
7

UNITED STATES DISTRICT COURT

8

NORTHERN DISTRICT OF CALIFORNIA

9
10

ASTARTE DAVIS,
Case No. 20-cv-02657-RS

Plaintiff,

11
v.
«

12

P *3

13

a

14

O o

15

rs

% %
V) "C,

a
£3 D
T5

2

•5

Defendants.
Pro se plaintiff Astarte Davis brings this action against Marin County Superior Court

16

judges Joseph Wilson and Stephen P. Freccero and California Court of Appeal Justice Mark B.

17

Simons, claiming that in proceedings relating to her marital dissolution in 1969, they deprived her

18

of property and denied her due process in violation of 42 U.S.C. § 1983. The magistrate judge to

19

whom the matter wras initially assigned issued a Report and Recommendation that the matter be

20

dismissed with prejudice, because (1) defendants have judicial immunity' and (2) Davis's claims

21

are barred by the Rooker-Feldman doctrine and (as to the property' issues) by the statute of

22

limitations. “The district judge must determine de novo any part of the magistrate judge’s

23

disposition that has been properly objected to.” Fed. R. Civ. P. 72(b)(3). The undersigned

24

previously found, as was recommended by the Report, that the present case is related to the prior

25

case Davis v. Davis, No. 18-cv-00094 (N.D. Cal. filed Jan. 4, 2018), and notified the parties of

26

their right to object to the Report within 14 days of its filing. See ECF No. 12.

G

£ «u*
Z) o
£

JOSEPH WILSON, et al

ORDER ADOPTING REPORT
AND RECOMMENDATION

. i-

27
28

Davis has now objected on the grounds that her action presents new evidence and alleges
newf causes of action against new' defendants, and thus is not barred by the prior related action

Case 3:20-cv-02657-RS Document 14 Filed 05/29/20 Page 2 of 2

1

which the undersigned dismissed. See Davis v. Davis, ECF No. 78. Regardless of the prior action,

2

however. Davis has failed to state a claim because defendants have judicial immunity for their
judicial acts. See Swift v. California, j84 F.3d 1184, 1188 (9th Cir. 2004) (citing Pierson v. Rav,

4

386 U.S. 547, 553-54 (1967)). Davis has not alleged any non-judicial acts by defendants. Her

5

discussion of qualified immunity is inapplicable to defendants, who have absolute immunity for

6

their judicial acts. Id. The recommendation to dismiss with prejudice will thus be adopted.

7
8

IT IS SO ORDERED.

9
10

Dated: May 29, 2020
•i

11
CG

rg

12

,9 --S

13

.a a

14

as

5

O

15

•s>

B TS
3 Q
T3

RICHARD SEEBORG
United States District Judge

16

G
S-h

G ts
P O

Z

17
18
19
20
21
22
23
24
25
26
27
28
2

Order adopting Report and Recommendation
Case No. 20-cv-02657-RS

APPENDIX B-5

US Court of Appeals Referral Notice

8

Page 1 of 1

astarte davis
From:
To:

Sent:
Subject:

<ECF-CAND@cand.uscourts.gov>
<efiling@cand.uscourts.gov>
Monday, June 15, 2020 11:40 AM
Activity in Case 3:20-cv-02657-RS Davis v. Wilson et al USCA Order

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT
RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt is required by law or directed by
the filer. PACER access fees apply to all other users. To avoid later charges, download a copy of
each document during this first viewing. However, if the referenced document is a transcript,
the free copy and 30 page limit do not apply.
U.S. District Court
California Northern District
Notice of Electronic Filing
The following transaction was entered on 6/15/2020 at 11:40 AM and filed on 6/12/2020
Case Name:
Davis v. Wilson et al
Case Number:
3:20-cv-02657-RS
Filer:
WARNING: CASE CLOSED on 05/29/2020
Document Number: 17
Docket Text:
USCA REFERRAL NOTICE as to [15] Notice of Appeal, filed by Astarte Davis. (gbaS,
COURT STAFF) (Filed on 6/12/2020)
3:20-cv-02657-RS Notice has been electronically mailed to:
Astarte Davis

astartedavis@hotmail.com

3:20-cv-02657-RS Please see Local Rule 5-5; Notice has NOT been electronically mailed to:
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:N:\20-cv-02657-RS USCA Referral Notice.pdf
Electronic document Stamp:
[STAMP CANDStamp_ID=977336130 [Date=6/15/2020] [FileNumber= 17039666-0]
[0d44a69e70ac0c9d049bb99b522487ae8c438a41e208fc037487bl31dc8d5e58e7f4
60b400e6ec20cffed0000e649b04d28649810e26bf45b 1 afbec2c3fc 13d0]]

6/15/2020

,
[v

APPENDIX B-6

Order Revoking Forma Pauperis

9

Case 3:20-cv-02657-RS Document 19

Filed Ub/lh/2U Page i or z

1
2

4
5

6
7

UNITED STATES DISTRICT COURT

8

NORTHERN DISTRICT OF CALIFORNIA

9
10

ASTARTE DAVIS.

Case No. 20-cv-02657~RS

Plaintiff.
11

v.
.5

« 5
o a
4—*

cC

ORDER REVOKING IN
FORMAPAUPERIS STATUS

«12
13

° o
•c

14

o t;

15

JOSEPH WILSON, et al.,
Defendants.

w 'o

c/1 •£

& to

This closed action is on appeal. The Court of Appeals has referred the matter to this Court

go

16

for a determination whether plaintiffs in forma pauperis (“IFP”) status should continue on appeal.

~5 I

17

This Court determines that it should not. There are no valid grounds on which an appeal can be

18

based. Consequently, the Court certifies that any appeal taken from the order of dismissal and

19

judgment of this action will not be taken in good faith and is therefore frivolous. Fed. R. App. P.

20

24(a)(3)(A); Ellis v. United States. 356 U.S. 674, 674-75 (1958); Hooker v. American Airlines,

•21

302 F.3d 1091, 1092 (9th Cir. 2002). Accordingly, plaintiffs IFP status is hereby REVOKED.

22

The Clerk shall forthwith notify plaintiff and the Court of Appeals of this order. See Rule 24(a)(4).

23

Plaintiff may file a motion for leave to proceed IFP on appeal in the Court of Appeals within thirty

24

days after sendee of notice of this order. See Rule 24(a)(5). Any such motion ‘‘must include a

25

copy of the affidavit filed in the district court and the district court’s statement of reasons for its

26

action." Id.

• c- £
n
ZD o
2

27

28

IT IS SO ORDERED.

Case 3:20-cv-02657-RS Document 19 Filed 06/15/20 Page 2 of 2

1
2

Dated: June 15. 2020
RICHARD SEEBORG

^

United States District Judge
4
5

6
7
8

9
10

11
.2

12

% g

51 13
4—»

■'£ u
00

14

o

5 U
6 «

15

-o £
£ £

c t!
P o

Z

15

16
17

.

18
19
20

21
22
23
24
25

26
27

Order
Case No. 20-cv-02657-RS

28
2

Additional material
from this filing is
available in the
Clerk's Office.

